<html>
<title> - WEATHERING THE STORM: THE NEED FOR A NATIONAL HURRICANE INITIATIVE</title>
<body><pre>[Senate Hearing 111-486]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-486
 
   WEATHERING THE STORM: THE NEED FOR A NATIONAL HURRICANE INITIATIVE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 28, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
54-496                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 28, 2009....................................     1
Statement of Senator Nelson......................................     1
    Prepared statement...........................................     2
Statement of Senator Vitter......................................     3
Statement of Senator Martinez....................................     4
Statement of Senator Hutchison...................................    44
    Prepared statement...........................................    45

                               Witnesses

Dr. Kelvin K. Droegemeier, Professor of Meteorology, University 
  of Oklahoma; Member, National Science Board; and Co-Chairman, 
  Task Force on Hurricane Science and Engineering................    26
    Prepared statement...........................................     5
Franklin W. Nutter, President, Reinsurance Association of America    27
    Prepared statement...........................................     6
Dr. Richard W. Spinrad, Assistant Administrator, Office of 
  Oceanic and Atmospheric Research, National Oceanic and 
  Atmospheric Administration, U.S. Department of Commerce........    29
    Prepared statement...........................................    10
Dr. Gordon L. Wells, Program Manager, Center for Space Research, 
  The University of Texas at Austin..............................    31
    Prepared statement...........................................    16
Leslie Chapman-Henderson, President/CEO, Federal Alliance for 
  Safe Homes, Inc.--FLASH.......................................    32
    Prepared statement...........................................    18

                                Appendix

Max Mayfield, Former Director, National Hurricane Center, 
  prepared statement.............................................    59
Response to written questions submitted by Hon. David Vitter to 
  Dr. Kelvin K. Droegemeier......................................    61


   WEATHERING THE STORM: THE NEED FOR A NATIONAL HURRICANE INITIATIVE

                              ----------                              


                         TUESDAY, JULY 28, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning. Welcome to the Commerce 
Committee.
    We are joined by a distinguished group of experts. The 
Assistant Administrator for Oceanic and Atmospheric Research, 
Dr. Richard Spinrad, leads the office at the National Oceanic 
and Atmospheric Administration. Dr. Spinrad is going to discuss 
NOAA's efforts to improve research for predicting, modeling, 
and forecasting hurricanes, the agency's work with coastal 
States to assess vulnerability to hurricanes, and their efforts 
to try to create something that we all desire, which is a 
disaster-resistant community.
    Dr. Kelvin Droegemeier is the Associate Vice President for 
Research and Regents Professor of Meteorology at the University 
of Oklahoma. Dr. Droegemeier is testifying today on behalf of 
the National Science Board's Task Force on Hurricane Science 
and Engineering. He will discuss the task force findings in 
their report, ``Hurricane Warning: The Critical Need for a 
National Hurricane Research Initiative.'' Dr. Gordon Wells, a 
Program Manager in the Center for Space Research at the 
University of Texas at Austin. Dr. Wells has worked on 
synthesizing satellite imagery, GPS signals, and the best 
hurricane and storm-surge models available to support coastal 
evacuation. His testimony will address the current state of 
science, the data needs of stakeholders, as well as future 
needs to improve research for predicting, modeling, and 
forecasting hurricanes.
    Ms. Leslie Chapman-Henderson is the President and CEO of 
the Federal Alliance for Safe Homes, a national nonprofit 
dedicated to strengthening homes and safeguarding families from 
disaster. Her testimony will address how model building codes 
can improve the resiliency of structures and reduce the 
economic cost of post-storm recovery efforts. A lot of her 
experience comes from the after effects that Florida suffered 
after the mega-hurricane, Hurricane Andrew, in 1992.
    Mr. Frank Nutter is the President of the Reinsurance 
Association of America. He currently serves on the board of the 
International Hurricane Research Center, the Council of 
American Meteorological Society, and the board of the 
University Center for Atmospheric Research. He will address the 
economic impacts of hurricane planning, damage, and recovery on 
vulnerable communities.
    We thank you all. Dr. Droegemeier, I want to especially 
thank you. You left your vacation early to come back so you 
could testify today, so thank you very much.
    I could say all of the obvious things about the destructive 
force of hurricanes. The fact is that we have this 
extraordinarily vulnerable coastline, and most of the 
population of America is along the coast. Certainly that's the 
case with regard to my State of Florida. We can see that this 
is an enormous cost, not only to insurance companies, to 
people, and to States, but also to the U.S. Government, and 
therefore, the people of this country.
    It's also deadly; 2,000 deaths in the United States since 
2003, and account for 66 percent of the insured losses due to 
natural hazards, hurricanes, and other tropical cyclones. You 
just think about it. It was the hurricane of 1928 that killed, 
drowned, 2,000 people in and around Lake Okeechobee. What a 
turning point in our history that was. We're experiencing a 
similar kind of thing with regard to the number of deaths since 
2003.
    Images like that, that's Hurricane Charley, a Category 3. 
It covered up virtually the entire State of Florida. Charlie, 
by the way, was the first of four hurricanes in 2004. Within a 
6-weeks period, four hurricanes hit Florida. Hurricanes hit 
virtually every part of the State within that 6-weeks period. 
That's a typical kind of destruction. I'm going to insert the 
rest of my introductory comments.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida

    Hurricanes are amongst the most destructive natural phenomena on 
earth. With our expansive, vulnerable coastline, the United States 
experiences physical and economic damage, disruption of commerce and 
business, and loss of life as a result of hurricanes.
    Hurricanes and other tropical cyclones have directly caused more 
than 2,000 deaths in the United States since 2003 and account for 
approximately 66 percent of insured losses due to natural hazards.
    This image from Hurricane Ike in Galveston, and the images we 
watched with sadness on the news after hurricanes Andrew in Miami and 
Katrina in New Orleans, leave no doubt as to the destructive potential 
of hurricanes; a destructive potential that not only impacts all 
aspects of our built environment--our homes, businesses, and roadways, 
but also fragile coastal ecosystems that are already under considerable 
threat.
    More hurricanes have ripped through my home state of Florida than 
any other state in the Nation. Forty percent of all land-falling 
hurricanes in the U.S. hit Florida. Of those storms, hurricanes Andrew, 
Wilma, Charley and Ivan together cost more than $100 billion.
    While hurricanes tend to strike in the coastal regions along the 
Gulf of Mexico and Atlantic seaboard, many other areas of the country 
feel the impacts of hurricanes. As these storms move away from the 
coast and into the interior of the US, they carry tropical air with 
them, which has caused some damaging floods in areas such as the upper 
Ohio Valley, a region well removed from the initial coastal impacts. 
Further, hurricanes in the eastern Pacific send forth streams of moist 
air thousands of miles long up the northwest coast. When this warm air 
interacts with a passing extratropical storm the result can be flooding 
and landslides in Oregon and Washington State.
    And there are farther reaching national effects. For instance, the 
disruption and damage done by Katrina to oil extraction and production 
facilities in the Gulf of Mexico and New Orleans resulted in an almost 
immediate spike in fuel prices, a 2-3 percent increase in the consumer 
price index, and a 10-15 percent increase in the transport consumer 
price index. Hurricane Katrina caused at least ten oil spills, dumping 
in total more than 7.4 million gallons into the Gulf Coast region's 
waterways. That's more than \2/3\ the amount that spilled during 
America's worst oil disaster, the rupturing of the Exxon Valdez tanker 
off the Alaskan coast in 1989.
    The American public is increasingly aware of the potential for high 
recovery costs and financing of natural disaster losses. The importance 
of prior preparation and insurance coverage for large catastrophic 
risks, including natural disasters such as hurricanes and earthquakes 
and efforts to promote a stable, affordable catastrophic insurance 
market cannot be understated. Insurance in affected regions has become 
either too expensive or simply unavailable to many customers. Many 
states like Florida have turned to state operated insurance and other 
vehicles to prepare for these large catastrophic risks.
    Senator Martinez and I have introduced several bills this year 
because we want a pro-active approach to addressing these natural 
catastrophe concerns.
    These bills include the Homeowners Defense Act, the Catastrophic 
Obligation Guarantee Act, the Commission on Catastrophic Disaster Risk 
and Insurance Act, the Policyholder Disaster Protection Act, the 
Catastrophe Savings Accounts Act of 2009, and the bill that we are here 
to discuss today--the National Hurricane Research Initiative Act of 
2009.
    The National Hurricane Research Initiative Act of 2009 will create 
a coordinated Federal hurricane research program focusing on high 
priority scientific, engineering, and socio-economic studies; and 
effectively applying the research results to improve forecasts and to 
mitigate the impacts of hurricanes on society. Investing in a national 
hurricane research initiative will help the Nation better prepare, 
respond to and recover from hurricanes. And, translating the research 
and developments into practice through adaptation and mitigation will 
repay the investment many times over.
    I look forward to hearing from our distinguished witnesses on their 
observations and recommendations on this important national issue.

    Senator Nelson. And I would call on Senator Vitter, our 
Ranking Member of our Subcommittee.

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you very much, Mr. Chairman.
    I want to welcome and thank all of our witnesses. I'm very 
much looking forward to the testimony.
    I'm here for a pretty obvious reason, too, just like you 
are, a natural interest in these phenomenons, representing 
Louisiana. Of course, the best-known example of a hurricane to 
hit Louisiana recently is Katrina, which caused enormous 
devastation, beginning with the death of over 1800 people. But, 
sort of like Florida, Louisiana has experienced multiple 
hurricanes in the last few years alone. Right after Katrina, we 
had Hurricane Rita, which was very, very serious, that 
particularly hit southwest Louisiana and southeast Texas, and 
then Hurricanes Gustav and Ike, since then.
    I won't go through all the statistics, all the devastation, 
the death, and the dollar loss, but clearly, particularly in 
places like Louisiana and Florida, the Gulf Coast, but also our 
other coasts are vulnerable, as well. I think there is a clear 
need for advanced and increased research in many areas, areas 
like understanding and predicting: predicting hurricane 
intensification and size, and reducing the uncertainty 
associated with where and when hurricanes make landfall; 
understanding air-sea interactions; predicting storm surge, 
rainfall, and inland flooding; and improved observations.
    Also, in the broad category of impacts, I think we need to 
understand even better the interaction of hurricanes with 
engineered structures, the economic and social impact of 
hurricanes, and mitigation measures, and the interaction of 
hurricanes with natural ecosystems.
    The third big category is preparedness and response 
measures, and certainly we have a lot of additional work to do 
there: assessing and improving the resilience of the built 
environment, disaster response and recovery, and certainly I'm 
working very hard with many members regarding a much more 
streamlined bureaucracy at FEMA, human behavior and risk 
planning, and evacuation planning. Evacuation is absolutely 
critical, particularly to lessen and mitigate any impact on 
people and any possibility of human deaths.
    So, I look forward to all of your testimony and look 
forward to continuing on the track of significant and 
aggressive research in all these areas, using our resources at 
NOAA and across the Federal Government.
    Thank you, Mr. Chairman.
    Senator Nelson. Senator Martinez, my colleague and my 
cosponsor----

                  STATEMENT OF MEL MARTINEZ, 
                   U.S. SENATOR FROM FLORIDA

    Senator Martinez. Thank you, Mr. Chairman.
    Senator Nelson.--share some comments.
    Senator Martinez. You weren't going to call me ``Martin-
ez,'' were you?
    Senator Nelson. Excuse me?
    Senator Martinez. You almost called me ``Martin-ez,'' I 
thought.
    Senator Nelson. Oh, no, not at all.
    Senator Martinez. OK, good.
    [Laughter.]
    Senator Nelson. I mean, I know better; I'm from Florida.
    Senator Martinez. I could take that from someone else, but 
not from you. Thank you very much, sir.
    [Laughter.]
    Senator Martinez. We are so pleased to have you here today, 
and so glad to have this hearing on something that is so, so 
important to the Gulf States, for sure, but, we think, really 
to the whole country.
    During my time in the Senate, I've been very focused on 
this problem, and I've worked very closely with my dear friend 
and colleague, Senator Nelson, as well as others here in the 
Capitol, to try to look for ways that we could get more 
expertise, more research, get some of the very brightest and 
best in our science and government, academic institutions, and 
the private sector, to better understand hurricanes.
    According to the National Science Board, from 2002 to 2007, 
hurricanes cost approximately $180 billion in losses, compared 
to $14 billion from earthquakes, yet there isn't a nationally 
targeted research initiative for hurricanes, like the National 
Earthquake Hazard Reduction Program. These deadly storms have 
killed over 2,000 people in the last 6 years, and with the 
majority of our Nation's population living near the coast, it 
is critical that we begin to have more coordinated and targeted 
strategy for dealing with hurricanes.
    There's no doubt in my mind that, in a State like Florida, 
this is very, very much connected to the future of our State as 
we look at the economic damage that can occur, but also the 
problem that we've had with insurance, which I know we'll be 
addressing today.
    And I should also say that, as a neighbor to the Caribbean 
Basin and to Central America, that so much damage and 
devastation has occurred in that region in the last several 
years. And it does, seasonally, because it is an area that is 
prone to these kinds of events. And so, the kinds of research 
that we can do will not only be of great benefit to our 
country--we'll save, as we do more mitigation, billions of 
dollars in after-storm cost--but it will also be of some real 
help to our neighbors and countries who really have a lot less 
wherewithal to deal with these problems themselves.
    So, thank you for being here. I look forward to your 
testimony.
    Senator Nelson. Gracias, Senador Martin.
    [Laughter.]
    Senator Martinez. All right, touche.
    Senator Nelson. All right. Now, as we discussed, what we're 
going to do is, not read a bunch of boring statements. I want 
to have a conversation. I want to have a dialogue, and I want 
you to bring it out. What I'll do is ask a couple of questions. 
We're not going to have a time limit. Then I'm going to throw 
it to you, Senator Vitter, and then to you, Senator Martinez.
    [The prepared statements of Dr. Droegemeier, Mr. Nutter, 
Dr. Spinrad, Dr. Wells, and Ms. Chapman-Henderson follow:]

     Prepared Statement of Dr. Kelvin K. Droegemeier, Professor of 
 Meteorology, University of Oklahoma; Member, National Science Board; 
    and Co-Chairman, Task Force on Hurricane Science and Engineering

    I thank Chairman Rockefeller, Ranking Member Hutchison, and the 
other Members of the Committee for the opportunity to speak today. My 
name is Kelvin Droegemeier and I am Associate Vice President for 
Research, Regents' Professor of Meteorology, and Weathernews Chair at 
the University of Oklahoma. I also am a member of the National Science 
Board (Board) and am appearing before you today in my role as Co-Chair 
of the former Task Force on Hurricane Science and Engineering of the 
Board. The final report of this Task Force was released on January 12, 
2007.
    As you are aware, every year hurricanes pose a threat to life, 
property, and the very economic vitality of our Nation. We spend 
billions of dollars on rescue and recovery after hurricanes occur, and 
yet hurricane research is a modest, loosely coordinated enterprise. 
Although of high quality, this research is conducted within the 
boundaries of traditional disciplines--stovepipes like meteorology, 
hydrology, engineering, computer science and ecology--with insufficient 
integration. And the engagement of social, economic, behavioral 
sciences--which is foundational to actually turning physical science 
and engineering research into useful practice--is woefully inadequate. 
In short, the hurricane is perhaps one of the best examples of a 
problem--absolutely vital to society--which must be studied in a multi-
disciplinary fashion if we hope to lessen our vulnerability.
    In recent years, the National Science Foundation (NSF) has 
supported research dealing with the geophysical, social, and 
engineering aspects of hurricane processes and the resultant impacts on 
society and the environment. This research has included the study of 
the physical genesis and lifecycles of hurricanes, the development of 
new simulation and forecast models of hurricane processes, the effect 
of land-falling hurricanes on ecosystems and the natural environment, 
the impacts on social systems in hurricane impacted areas, the 
engineering and structural aspects of damage resistant practices in 
areas prone to hurricane exposure, and damage assessment of facilities 
and infrastructure in hurricane impacted areas.
    Despite the excellent research funded by NSF, there are still many 
areas that need to be addressed. While advances have been made during 
the past decade in meteorological understanding and prediction, we 
still know relatively little about the most important aspects of 
hurricanes from an integrative perspective, including their internal 
dynamics and interactions with the larger-scale atmosphere and ocean; 
methods for quantifying and conveying uncertainty and mitigating 
hurricane impacts; associated short and long term consequences on the 
natural and built environment; and the manner in which society responds 
before, during and after landfall.
    Additional research relevant to hurricane understanding, 
prediction, mitigation, consequences and societal responses is 
especially needed in the social, behavioral and economic sciences. 
Communities are often overwhelmed with sometimes conflicting 
information regarding risk planning and procedures for action. 
Additionally, effective training and outreach activities, involving 
policy and decisionmakers, are needed to ensure that research efforts 
are appropriately applied, thus meeting the societal demand for 
protection of life and property and responsible management of 
resources. Finally, the social impacts of human-induced changes to 
coastal and off-shore vulnerability--ranging from land use development 
and practices that drastically modify the fate of precipitation runoff 
to social demographics of communities and their mobility--must be 
better understood and effectively incorporated into societal 
decisionmaking.
    Specific areas of concern raised in the National Science Board's 
2007 report, Hurricane Warning: The Critical Need for a National 
Hurricane Research Initiative, include: (1) Impacts--including 
interaction of hurricanes with engineered structures, economic and 
social impacts of hurricanes and mitigation measures, and interactions 
of hurricanes with natural ecosystems; (2) Preparedness and Response 
Measures--that is, assessing and improving the reliance on the built 
environment, disaster response and recovery, human behavior and risk 
planning, and evacuation planning; and (3) Crosscutting Activities--
such as computational capability, and training and education programs 
related to hurricane impacts. In that report we note, moreover, that 
many of the hurricane research efforts conducted to date are narrowly 
focused, with limited coordination across disciplines. This makes it 
difficult to engage the more challenging questions, the answers to 
which are not obtainable with short-duration studies. The bottom line 
is that many of the disciplines for which hurricanes are an important 
research challenge (e.g., physical science, engineering, social 
science, behavioral science, and economics) do not regularly interact, 
resulting in a myopic view that limits the effectiveness of problem 
formulation and translation of research outcomes into operational 
practice. Efforts are needed to bridge communications across 
disciplinary boundaries through workshops and interdisciplinary 
research approaches.
    The Board encourages interdisciplinary research and NSF is 
experienced at supporting research that crosses disciplinary 
boundaries. The Board's Hurricane Task Force found in our roundtable 
discussions with the science and engineering community that researchers 
from multiple disciplines are eager to work with one another. An 
example of this is that in FY 2008 NSF and the National Oceanic and 
Atmospheric Administration issued a joint announcement calling for 
proposals to advance fundamental understanding of the communication of 
hurricane outlooks, forecasts, watches, and warnings both to 
decisionmakers (i.e., emergency managers, elected officials) and to the 
general public. NSF is also discussing with other agencies their 
interests and how coordination can be improved, taking into account the 
priorities related to hurricanes under development by the Disaster 
Reduction Subcommittee of the National Science and Technology Council's 
Committee on Environment and Natural Resources.
    On behalf of the National Science Board and our Chairman, Dr. 
Steven Beering, I want to thank the Committee for the important work 
they do for U.S. scientific research, education, and training. We 
understand and appreciate that the Federal Government is undergoing 
significant budget pressures at this time, but the future strength of 
the Nation depends on the investments we make in science and technology 
today. We appreciate your attention to the recommendations of the Board 
concerning hurricane research and stand ready to assist in whatever 
ways might be most beneficial.
                                 ______
                                 
         Prepared Statement of Franklin W. Nutter, President, 
                   Reinsurance Association of America

    My name is Frank Nutter and I am President of the Reinsurance 
Association of America (RAA). The RAA is a national trade association 
of property and casualty reinsurers doing business in the U.S. Its 
membership is diverse, and includes reinsurance underwriters and 
intermediaries licensed in the U.S. and those that conduct business on 
a cross-border basis. It is a pleasure to appear before you today on 
``The Need for a National Hurricane Research Initiative.'' The RAA 
supports efforts to enhance the science of hurricanes. We also strongly 
endorse increased Federal funding for hurricane research and 
forecasting. These research initiatives are critical to efforts to 
minimize the economic and human loss associated with hurricanes. Today, 
my testimony will address the economic impacts of hurricane activity 
and the reinsurance perspective on managing risk by promoting the 
conservation of our natural resources and through risk mitigation 
efforts along our densely-populated coastlines.
    I want to thank Senators Martinez and Nelson for their sponsorship 
of S. 1485, the National Hurricane Research Initiative Act of 2009, a 
bill that would enhance the country's hurricane research agenda in a 
manner that would strengthen our ability to protect citizens and 
property, and lessen the financial burden to society of the aftermath 
of the most intense storms. The bill's research priorities target key 
elements such as forecast model development and improved observations, 
both of which would contribute to better prediction of hurricane 
intensity and structure; storm surge and aftermath flooding; and the 
relationship between hurricanes, climate change, and ecosystems. But 
considering the enormous costs associated with major storms that I will 
discuss in my testimony, we would support a greater level of funding 
for the National Hurricane Initiative, such as that recommended in H.R. 
327, which authorizes $150,000,000 to be appropriated for each of 
Fiscal Years 2009-2013.

U.S. Reinsurance Industry's Support for Hurricane Research
    (Re)insurers have a keen interest in improved hurricane forecasting 
and risk management as a means to reduce economic loss. The insurance 
industry's financial health is inter-dependent with climate and 
weather. The risk of natural events drives the demand for property 
insurance coverage, yet if not properly managed, it can threaten the 
financial health of an insurer. An insurance company's financial 
viability rests on its ability to estimate the economic consequences of 
future events. Because of this, the insurance and reinsurance 
industries have long supported private and public sector research 
efforts to better understand the frequency, severity, financial impact 
and mitigation of natural catastrophes, particularly hurricanes. Of 
special note are Munich Re and Swiss Re, which have devoted significant 
resources to study hurricane activity and made the results of these 
studies publicly available as a means to enhance appropriate risk 
management strategies. In addition to the success of the Federal 
Alliance for Safe Homes (FLASH), represented in this hearing by Leslie 
Chapman-Henderson, two private insurance sector research initiatives 
are noteworthy. The Willis Research Network, which is funded by the 
Willis Group--an insurance and reinsurance intermediary--is the largest 
collaboration between academia and the reinsurance industry to further 
the understanding of natural hazards and translating that understanding 
into effective risk management tools. The Willis Research Network has 
supported open academic research posts at the National Center for 
Atmospheric Research, Princeton University, and the University of 
Colorado with particular emphasis on high resolution modeling and 
forecasting. The Willis Research Network has established a liaison 
group between academics in the United Kingdom and the United States and 
global insurers.
    The Institute for Business & Home Safety (IBHS) is another example 
of private sector research focused on reducing the social and economic 
loss from natural disasters. Partnering with manufacturers, insurers, 
and research groups, the IBHS has long advocated for stricter building 
codes for residential and commercial construction--especially along our 
coastlines--as well as better land use planning and improved building 
design and materials as risk mitigation strategies. Just last week, the 
IBHS announced that construction will shortly begin on its multi-peril, 
applied property loss research center. The center's research will focus 
on catastrophe-related exposures, including the natural hazards of 
wind, fire, wind-driven water intrusion, earthquake and hail.
    Ultimately, collaborative public and private sector research 
efforts such as these will assist public policymakers, public officials 
and private sector interests in better understanding the dynamics of 
hurricanes and appropriate mitigation and adaptation strategies.

The Economics of Hurricanes
    A report by the Risk Management and Decision Processes Center of 
the Wharton School--``Managing Large-Scale Risk in a New Era of 
Catastrophes''--observes that two principal socio-economic factors 
directly influence economic losses due to a catastrophic event: the 
increasing degree of urbanization and value at risk. The U.S. Census 
Bureau data bears this out: 35.7 million Americans live in coastal 
counties most threatened by hurricanes; essentially the coastal 
populations from North Carolina to Texas--approximately 12 percent of 
the U.S. population. As a result, from 1980 through 2005, 29 percent of 
the Nation's population lived in a county that experienced at least one 
hurricane. This combination of urbanization and increasing property 
values translates into increased concentration of exposure in areas at 
high risk for hurricanes and extreme storms. Gulf and Atlantic Coast 
insured property exposure totals $9 trillion. Of this insured coastal 
exposure, $2.4 trillion is in Florida; $2.4 trillion in New York; $900 
billion in Texas; $775 billion in Massachusetts; $635 billion in New 
Jersey; $480 billion in Connecticut; and $224 billion in Louisiana.
    Catastrophe modeling firm AIR Worldwide estimates that catastrophe 
losses will double every decade due to this growing residential and 
commercial density. Since the first $1 billion-plus hurricane insured 
loss in 1989 (Hurricane Hugo), Munich Re reports that economic losses 
(insured and uninsured) of greater than $1 billion have risen 
dramatically: $60 billion in 2004; $170 billion in 2005; $58 billion in 
2008. This reflects a rise in the number of global meteorological 
(storm), hydrological (flood) and climatological events, while 
geophysical events (earthquakes and volcanic eruptions) have remained 
steady. Worldwide in 2008, there were nearly 700 such extreme 
atmospheric events; over 900 in both 2007 and 2006.
    According to the Insurance Information Institute, the U.S. 
insurance industry has reported $170 billion of insured hurricane 
related losses since 1988. Although that number is significant, 
estimated losses (in 2009 dollars) for past hurricanes based on current 
exposures \1\ are more notable:
---------------------------------------------------------------------------
    \1\ iCAT Damage Estimator



                                                        Today's Economic Loss           Today's Insured Loss

      <bullet> 1900 Galveston, Texas                                 $94 billion                    $33 billion
      <bullet> 1926 Miami Hurricane                                 $180 billion                    $80 billion
      <bullet> 1938 Long Island, NY                                  $45 billion                    $35 billion
      <bullet> 1960 Hurricane Donna (FL-ME)                          $44 billion                    $26 billion
      <bullet> 2005 Katrina, Gulf Coast                              $91 billion                    $41 billion


Natural Hazard Mitigation
    In addition to appropriating increased funding for hurricane 
research and improved forecasting, Congress should help people living 
in hurricane-prone coastal areas take proactive mitigation and 
adaptation steps to protect their property, rather than encourage 
unwise development in these high-risk, environmentally-sensitive 
locales. The research arising from new Congressional funding will 
assist in the assessment of planning aimed at mitigation and 
adaptation.
    The RAA has partnered with environmental groups in support of the 
following principles:

  <bullet> Build Smart: Based on the continuing scientific assessment 
        of the effects and consequences of a changing climate, property 
        and infrastructure in coastal areas and other high-hazard areas 
        should be built, replaced or repaired according to the most 
        modern building standards and codes reflecting exposure to 
        natural disasters and effective loss-reduction measures.

  <bullet> Encourage Safety: Government incentives should promote risk-
        avoidance and proactive mitigation measures to protect the 
        public from a broad range of natural disasters, including wind, 
        flood, wildfires and earthquakes.

  <bullet> Use Nature: To protect both the public and ecosystems that 
        provide natural ``buffers'' to storms, renewed efforts should 
        be made to preserve coastal areas consistent with effective 
        state and Federal laws, using uniform, objective standards.

  <bullet> Insure Based on Risk: Private and public property insurance 
        programs should be established on the basis of risk exposure, 
        including catastrophic risk.

    Consistent with these principles, the RAA supports legislation to 
encourage homeowners, businesses and other property owners to reinforce 
their homes, buildings, and properties to mitigate damage from natural 
disasters. For instance, we support legislation introduced by House 
Committee on Homeland Security Chairman Bennie Thompson. The Property 
Mitigation Assistance Act of 2009 (H.R. 1239) would provide grants to 
states to set up loans to homeowners for mitigation; the Predisaster 
Hazard Mitigation Enhancement Act of 2009 (H.R. 3027) would provide 
mitigation grants to states to promote pre-disaster mitigation 
measures; and the Hazard Mitigation for All Act of 2009 (H.R. 3026) 
would fund mitigation efforts for publicly-assisted housing. Research 
has demonstrated that pre-disaster mitigation efforts are very 
effective in saving costs and even human lives. The National Institute 
of Building Sciences' Multihazard Mitigation Council estimated that 
FEMA grants made between 1993 and 2003 to mitigate the effects of 
natural disasters will save more than 220 lives and prevent almost 
4,700 injuries over 50 years.

Additional Considerations
    The RAA is also part of the Building Code Coalition whose goal is 
to enact legislation to amend the Stafford Act to enhance existing 
mitigation programs by encouraging states to adopt nationally-
recognized model building codes for residential and commercial 
structures. With billions of dollars paid by the Federal Government and 
the private sector for disaster relief and rebuilding of communities, 
legislation that would enhance FEMA's ability to ``prepare for, 
prevent, respond to and recover from disasters'' is critically 
important.
    We also support an increase in funding for FEMA's Pre-Disaster 
Mitigation (PDM) program. This program provides funds to states for 
community-based hazard mitigation activities identified in a State 
Mitigation Plan such as increasing building elevations, flood-proofing, 
improving the survivability of existing and new buildings, and 
relocating willing sellers from natural disaster prone areas. In 2007, 
the Congressional Budget Office found that projects funded through the 
Pre-Disaster Mitigation program between 2004 and June 2007 resulted in 
a reduction of future disaster spending of approximately three dollars 
for every dollar spent on these projects. We also believe that 
infrastructure projects funded through Federal appropriations consider, 
and incorporate measures to reduce, the risks of the potential impacts 
of natural disasters, such as windstorms and floods, particularly in 
light of the anticipated effects of global climate change.
    Hazard mitigation programs are well-established as a cost-effective 
means to reduce the impact of natural disasters. In 2005, a 
Congressionally-mandated study by the Multihazard Mitigation Council 
(an advisory body of the National Institute of Building Sciences) 
concluded that cost-effective mitigation saves an average of four 
dollars for every dollar spent.
    Land-use planning, largely the purview of local governments, is 
also key to reducing development in environmentally-sensitive, high-
risk coastal areas. We support the Coastal Barrier Resources System 
which prevents structures proposed for construction in undeveloped, 
environmentally-pristine areas from purchasing Federal flood insurance. 
The Coastal Zone Management Act could provide a tool--essentially a 
climate adaptation tool--to ensure states are planning for the 
potential risks posed by the impacts of climate change. If blended with 
the State Hazard Mitigation Plans already required by the Stafford Act 
and approved by FEMA, the combination provides states with the planning 
tools they need to develop and implement a climate adaptation plan.

Climate Change
    With 30 percent of the U.S. population living in coastal counties 
most exposed to hurricanes, extreme storms, and related storm surge, 
global climate change will increase U.S. citizens' exposure to property 
losses and potential loss of life, and disrupt and degrade ecosystems 
and natural features such as barrier islands, mangroves, and wetlands 
that act as natural buffers to wind and flooding. Enhanced funding for 
hurricane research will help us to better understand the relationship 
between hurricanes, climate change and ecosystems. Such research should 
require regional climate models operating at much higher resolution 
over climatic time scales than previously attempted. The development of 
regional climate models capable of resolving hurricanes and producing 
statistics on future climate will provide a database that can 
substantially extend and render more accurate risk assessment methods. 
As the Senate considers climate legislation, we encourage the adoption 
of appropriate provisions that require Federal and state governments to 
develop and implement adaptation programs that will enable us to better 
prepare for the impacts of climate change on our communities and 
natural environment. It is important that the activities and projects 
identified in these adaptation programs are implemented in a way that 
is consistent with Federal conservation and environmental law. This can 
be achieved through the use of vulnerability assessments, as well as 
through a variety of cost-effective programs and measures I mentioned 
earlier that would make our communities safer and our natural resources 
more resilient to the effects of climate change.

Conclusion
    I commend the Committee for conducting this hearing to better 
understand the many effects hurricanes have of on our Nation's 
communities, and its support for increased Federal research on the 
science of hurricanes and hurricane forecasting. The RAA is committed 
to working with Congress for legislative measures to improve 
mitigation, adaptation, and increase hurricane research funding. All 
legislative efforts should ensure environmentally-sound and fiscally 
responsible policy that will ultimately reduce the costs borne by 
Federal and state governments, insurers/reinsurers, and the American 
taxpayers, as well as save lives, protect habitats, and ensure our 
coastal areas thrive for future generations.
    Thank you.
                                 ______
                                 
Prepared Statement of Dr. Richard W. Spinrad, Assistant Administrator, 
   Office of Oceanic and Atmospheric Research, National Oceanic and 
        Atmospheric Administration, U.S. Department of Commerce

    Thank you, Mr. Chairman and Members of the Committee for this 
opportunity to testify on the importance of increased hurricane 
research and preparedness. I am Dr. Richard W. Spinrad, Assistant 
Administrator of the Office of Oceanic and Atmospheric Research, within 
the National Oceanic and Atmospheric Administration (NOAA) in the 
Department of Commerce (DOC). The Office of Oceanic and Atmospheric 
Research conducts and sponsors the scientific research, environmental 
studies, and technology development needed to improve NOAA's operations 
and applications, and broaden our understanding of the Earth's 
atmosphere and oceans.
    We thank the Committee for its continuing interest in addressing 
the complex issues of hurricane research, prediction, planning and 
response, and for its critical role in protecting lives and property 
from these serious weather events.

Introduction
    More than 50 percent of the U.S. population is living within 50 
miles of the coast,\1\ and roughly 180 million people visit the coast 
annually. The coastal population explosion over the last half-century 
translates to increased risks for these coastal communities. Annual 
U.S. hurricane losses average about $10 billion and a recent historical 
analysis of hurricane damages from 1900 to 2005 suggests that every 10 
years economic losses sustained from land falling hurricanes 
doubles.\2\ While NOAA has a very good record of forecasting and 
tracking hurricanes, because of the importance of these functions there 
is still a great need to improve. Advancement in these areas is a key 
priority for NOAA. Improvement in NOAA's ability to forecast hurricane 
track and intensity will support our partners in the emergency 
management communities at the national, regional and local levels, who 
depend on these forecasts to make decisions on how to secure their 
communities. Emergency managers need to know where a hurricane will 
make landfall and they need to know how strong the hurricane will be 
when it does make landfall, in order to make their determination on any 
necessary evacuation orders. Therefore, it is important our forecasts 
be as accurate as possible, to ensure evacuation orders are not issued 
unnecessarily, which is both costly and can undermine future evacuation 
efforts (if citizens do not trust in the forecast and do not evacuate). 
These forecasts, and the public's ability to rely upon them, are an 
essential factor in avoiding loss of life and injury and reduced 
property loss and economic disruption. Without accurate hurricane 
forecasts, it is difficult for emergency managers to take necessary 
decisive action to save lives and mitigate economic losses.
---------------------------------------------------------------------------
    \1\ http://www.ofcm.noaa.gov/p36-isrtc/fcm-p36.htm; http://
coastalmanagement.noaa.gov/part
nership.html.
    \2\ Pielke, R. A., Jr., J. Gratz, C. W. Landsea, D. Collins, M. 
Saunders, and R. Musulin, 2007: Normalized Hurricane Damages in the 
United States: 1900-2005. Accepted for publications in the Bull. Amer. 
Met. Soc.
---------------------------------------------------------------------------
    Action is needed to undertake an aggressive effort to improve our 
national hurricane forecasting capability. This effort will require the 
leadership of Federal Government, and collaborative efforts with our 
partners in state and local governments, and the research and academic 
communities. To support this need, NOAA is working with a wide variety 
of partners to improve observations, modeling and computing 
capabilities and advance our hurricane forecasts.
    In addition, NOAA has been playing a role in enhancing community 
resilience to the impacts of hurricanes. NOAA provides products and 
services to help communities assess their risks and vulnerabilities, 
develop their plans (e.g., land use, hazard mitigation, climate 
adaptation), and implement their strategies to strengthen their ability 
to prepare for, respond to, and rapidly recover from hurricanes and 
other forms of coastal inundation.

Need for Improved Hurricane Forecasts
    Since 1990, hurricane forecast track accuracy has increased by 
about 50 percent through the use of enhanced observations, improved 
model guidance, and increased forecaster expertise. This improvement in 
hurricane forecast track accuracy has led to increased lead time and, 
in some cases, smaller warning areas, which has allowed more time for 
emergency managers to coordinate their evacuation and preparedness 
activities. However, little progress has been made during this period 
to increase the accuracy of intensity forecasts and to identify rapid 
changes in hurricane intensity. Rapid changes in hurricane intensity 
(for example, a change of two-categories on the Saffir-Simpson 
Hurricane Scale within 24 hours or less) presents a challenge to 
hurricane forecasters during the life of a storm and is a serious 
problem for emergency managers when it occurs just prior to landfall. 
Recent cases of rapid intensity changes at or near the U.S. coastline 
have occurred with little or no warning.
    The sense of urgency for improved hurricane forecasts is consistent 
with the overarching recommendations in three recent reports: the 2006 
NOAA Science Advisory Board Hurricane Intensity Research Working Group 
report, the 2007 report of the National Science Foundation (NSF) 
National Science Board (NSB): Hurricane Warning: The Critical Need for 
a National Hurricane Research Initiative, and the 2007 report issued by 
the Office of the Federal Coordinator of Meteorological Services 
(OFCM): Interagency Strategic Research Plan for Tropical Cyclones--The 
Way Ahead. All three reports recommend an increase in funding for 
hurricane and tropical cyclone research and development, and transition 
of research to operations. In addition, many studies and reports have 
shown that investments in forecasts and other warning information 
needed for community planners have a significant return for the nation, 
including the 2007 report issued by the National Hazards Review,\3\ 
Hurricane Forecasting: The State of the Art, and a report from the 
Multihazard Mitigation Council (MMC) of the National Institute of 
Building Sciences.\4\
---------------------------------------------------------------------------
    \3\ Willoughby, H. et al., ``Hurricane Forecasting: The State of 
the Art'', National Hazards Review  ASCE, August 2007, p.45-49.
    \4\ http://www.nibs.org/MMC/MitigationSavingsReport/
Part1_final.pdf.
---------------------------------------------------------------------------
Operational Needs
    The operational goals of NOAA's tropical cyclone operation centers 
(National Hurricane Center (NHC), Central Pacific Hurricane Center, and 
the Joint Typhoon Warning Center) are to produce improved forecast 
information on wind speed, precipitation, and storm surge, as well as 
to quantify the amount of uncertainty in the forecasts, to enable 
emergency managers and others to make necessary decisions.
    To reach these operational goals, NOAA has identified several 
critical steps to ensure the future success of the Nation's hurricane 
forecast and warning program:

  <bullet> Focused applied research and transition efforts to improve 
        computer models;

  <bullet> Advanced observations and observational strategies;

  <bullet> Improved processing capabilities to include those data into 
        the models;

  <bullet> Expanded forecaster tools; and

  <bullet> Properly applied human and infrastructure resources.
    The transition of research to operations--referred to by the OFCM 
and defined by the Board on Atmospheric Sciences and Climate, National 
Research Council as ``bridging the valley of death''--requires robust 
interaction between the research and operational communities, as well 
as a strong interface with the user community. Also required is a 
healthy infrastructure for the transition, including resources and 
processes for evaluation and demonstration, operational implementation 
and operations and maintenance.
    For example, testbeds, such as the Joint Hurricane Testbed in 
Miami, the Developmental Testbed Center in Boulder, and the Joint 
Center for Satellite Data Assimilation in Maryland, are oriented toward 
improving operational hurricane forecasts and guidance. These testbeds 
provide evolutionary pathways to coordinate applied model and 
technology advancements to specific forecast requirements and focus on 
identifying and effecting the transition of research and technologies 
capable of providing immediate and justifiable improvements to 
operational hurricane forecasts.

Federal Investments
    Our goal is to ensure new breakthroughs in hurricane research and 
technology can be accelerated into NOAA's operational forecasting 
systems. The importance of addressing operational forecast requirements 
and related research focus areas requires:

  <bullet> Easy access to current and planned observing systems;

  <bullet> Increased high performance computing capacity and capability 
        to allow for higher resolution models;

  <bullet> Institutionalized and transition research to operations to 
        ensure an efficient process to incorporate demonstrated 
        research results in modeling and observing systems;

  <bullet> A plan for sufficient operations and maintenance resources; 
        and

  <bullet> Enhanced interactions with the broader science and 
        engineering community to provide increased understanding of 
        hurricanes while using all available resources.

    Therefore, a sustained and broad hurricane research initiative 
would make the best use of these capabilities and improve our 
understanding of and ability to predict hurricanes.
    As a first step in 2008, NOAA, as part of a coordinated national 
effort which includes the efforts of United States Navy and the 
National Science Foundation, started the Hurricane Forecast Improvement 
Project (HFIP). HFIP--described in more detail later in the testimony--
is a multi-year investment designed to: significantly improve hurricane 
forecasts and warning accuracy for track and intensity; extend the 
lead-time for useful forecast information; and increase overall 
accuracy of coastal hurricane-related storm surges. NOAA's FY 2010 
request of $17 million for HFIP supports research and development for 
improving forecast modeling systems for hurricanes and storm surge, as 
well as improving forecasting techniques at our operational Centers. 
The request builds on a one-time supplemental budget of $17 million, 
added to $4 million in base funding, received in FY 2009. HFIP 
activities are and can continue to be accomplished under current law.

Building off the Nation's Interagency Strategic Research Plan
    We are working to build upon recent planning efforts of the NSF, 
NSB and OFCM \5\ to engage the broader research community in improving 
hurricane forecasts. Our goals include improving the accuracy, 
reliability, and extending the lead time of hurricane forecasts and 
increasing confidence in those forecasts by customers and 
decisionmakers, especially those in the emergency management community. 
These goals were also echoed by the NOAA Science Advisory Board's 
Hurricane Intensity Research Working Group.
---------------------------------------------------------------------------
    \5\ Office of the Federal Coordinator for Meteorology (OFCM) P-36, 
2007; Interagency Strategic Research Plan for Tropical Cyclones--The 
Way Ahead.
    National Science Board, 2007; Hurricane Warning: The Critical Need 
for a National Hurricane Research Initiative.
    National Oceanic and Atmospheric Administration Science Advisory 
Board, Hurricane Intensity Research Working Group Majority Report.
---------------------------------------------------------------------------
    Within the framework of operational hurricane forecast 
improvements, NOAA seeks a partnership among the Federal and academic 
communities to align the broader science and engineering community with 
the operational community to realize the greatest benefits for the 
country. This broader partnership is critical to effectively address 
our goals and for NOAA to transition new research and technology into 
operations.

NOAA Strategy to Align with the Larger Community
    The key to success in improving hurricane prediction is leveraging 
the capabilities of all partners: Federal, state, local, academic, and 
private sector. Communication between Federal partners and the external 
community on operational needs and associated research focus areas is 
necessary to achieve both immediate successes and scientific research 
advances that hold promise for the future. An annual interagency 
program review with a significant external (to NOAA) role is being 
planned with the Interdepartmental Hurricane Conference, as a possible 
venue. This conference leads up to an annual summit attended by agency, 
academia, and private sector research leadership.
    NOAA is working with NSF to formally establish the National 
Hurricane Research Alliance to ensure coordination across the broad 
spectrum of activities from observations to data assimilation to 
modeling to basic research. The Alliance will include key Federal 
agencies, including NSF, the National Aeronautics and Space 
Administration (NASA), and the Navy (including the Office of Naval 
Research). This Alliance will leverage existing Federal hurricane 
coordination efforts, including those from the OFCM Services and 
Supporting Research, to manage overall roles and responsibilities to 
improve overall accuracy and reliability of hurricane forecasts. 
Through this Alliance, NOAA and NSF will work with other Federal 
agencies to maximize the use of the considerable non-Federal assets in 
conducting much of the hurricane research and development described in 
the aforementioned reports, and in developing and disseminating related 
products and services.

Hurricane Forecast Improvement Project (HFIP)
    NOAA established the Hurricane Forecast Improvement Project (HFIP) 
to develop a national, interagency 10-year plan to improve our one to 5 
day tropical cyclone forecasts, with an emphasis on rapid intensity 
change. The goal of HFIP is to improve the accuracy and reliability of 
hurricane forecasts and warnings and to increase the confidence in 
those forecasts to enhance mitigation and preparedness decisions by 
emergency management officials at all levels of government and by 
individuals.
    The scope of the HFIP plan encompasses research and development:

  <bullet> To improve understanding, with emphasis on the phenomena 
        related to predictability of rapid intensity \6\ change;
---------------------------------------------------------------------------
    \6\ Rapid intensification is defined at a 30-knot increase of 
sustained maximum surface winds in 24 hours or less.

  <bullet> To improve observations and observational strategies for the 
---------------------------------------------------------------------------
        hurricane and its environment;

  <bullet> To uncover novel methods for data assimilation, to utilize 
        the diverse range of existing and new observations;

  <bullet> To advance high-resolution numerical prediction systems for 
        hurricane forecast guidance; and

  <bullet> To accelerate the transfer of research results into 
        operational forecasting.

    While NOAA is developing its level of involvement in the broader 
spectrum of issues identified in the NSB report (cited in the 
introduction), NOAA focused HFIP on the research and development issues 
identified by operational needs that will lead to improved hurricane 
forecast guidance and tools. HFIP aims to reduce and quantify the 
uncertainty in all forecast guidance, including high spatial/temporal 
resolution gridded wind speed, precipitation, storm surge analysis and 
forecast information. Our efforts will focus on improved track 
forecasts, improved intensity forecasts, improved rapid intensity 
change forecasts, and improved lead time.
    Below are four examples of our metrics:

        1. Reduce average track error by 50 percent

        Based on input from emergency managers at all levels, forecasts 
        of the location or track of the tropical cyclone are most 
        important. Over the past couple of decades the hurricane 
        community has put most of its effort and resources into 
        reducing the track error. While the limits of predictability 
        for track error are not fully understood, NOAA will seek to 
        reduce the track error by 50 percent over the next decade, 
        which is the same level of improvement as NOAA was able to 
        achieve over the past 15 years. More accurate information on 
        the location of the storm will allow emergency managers to 
        focus on a more precise coastal area at landfall and avoid 
        unnecessary evacuations.

        2. Extend the lead time for hurricane forecasts out to 7 days

        In 2003 the NHC extended the lead time of its forecasts from 
        three to 5 days. However state and Federal emergency managers 
        have expressed that 5 days is not enough time to prepare 
        certain areas, due to population growth, infrastructure, 
        resources, etc. Extending the forecast out to 7 days would help 
        address their concern and need for longer lead times to ensure 
        those impacted (the public, businesses, etc.) have sufficient 
        time to prepare for, and evacuate from, an approaching 
        hurricane.

        3. Reduce average intensity error by 50 percent

        In July 2006, the NOAA Science Advisory Board's Hurricane 
        Intensity Research Working Group recommended the overarching 
        goal for NOAA Research and Development activity should be to 
        reduce the 48-hour hurricane intensity forecast error by 10 
        knots, or about one-half of a Saffir-Simpson Scale category. 
        The current hurricane 48-hour official forecast intensity error 
        is 15 knots or roughly the wind speed range for one category on 
        the Saffir-Simpson Hurricane Scale. Due to the uncertainty in 
        today's intensity (strength of storm) forecast, NHC suggests 
        that emergency managers prepare for one category above the NHC 
        official intensity forecast (e.g., if NHC forecasts a Category 
        3 hurricane at landfall, emergency managers should prepare for 
        a Category 4). A 50 percent reduction in intensity error will 
        allow emergency managers to better focus their preparedness 
        efforts. Reducing the uncertainty in the hurricane intensity 
        forecasts will also support evacuation decisions by identifying 
        the coastal and inland areas of greatest concern for wind and 
        associated storm surge.

        When the impacts of the 50 percent improvement in track and 
        intensity errors are combined for the Gulf Coast, forecasts 
        provided to the emergency managers will be a more confined area 
        of concern with a more precise wind estimate.

        4. Increase the forecast accuracy of rapid intensity change 
        events

        While improving the forecast accuracy of rapid intensity change 
        events within 1 day of landfall is a high priority, given the 
        uncertainty in track forecasts of landfall and the need by some 
        to make decisions on protective actions more than 1 day before 
        landfall, these improvements are needed at all lead times over 
        the entire life of the storm. Increasing the forecast accuracy 
        of rapid intensity change events can lead to greater confidence 
        in forecasts. Emergency managers and the public will be able to 
        make decisions and take appropriate action. Today, emergency 
        planning is based on a storm one category higher than what is 
        predicted. More accurate rapid intensity change predictions 
        will allow for more efficient evacuations and preparedness.

Key Successes of HFIP
    During the 2008 Atlantic Hurricane Season, NOAA research 
scientists, along with those associated with Texas A&M University, 
Pennsylvania State University, and the Naval Research Laboratory (NRL), 
were able to make use of National Science Foundation (NSF) 
computational resources at the Texas Area Computing Center (TACC). 
Through the use of the TACC, our scientist were able to begin 
accelerating research on the next generation hurricane modeling system 
and provide the NHC near real-time next generation hurricane model 
output.
    Because of the NSF contribution, and the expert assistance and 
support of the TACC staff, the NOAA was able to demonstrate the 
potential benefits of new observational datasets, such as the real-time 
assimilation of airborne Doppler radar in a high resolution regional 
model to improve forecast guidance. The scientists demonstrated 
potential benefits to track forecasts using a high resolution global 
model using multiple model runs of high resolution data. This provided 
a range of forecast solutions to the hurricane forecast track and will 
help provide improved hurricane strike probabilities in the future.

NOAA's Role in Enhancing Community Resilience to the Impacts of 
        Hurricanes
    Increasing coastal populations, the value of the coastal economy to 
the Nation, and the loss of protective coastal habitats have increased 
the costs and risks from the impacts of hurricanes and other forms of 
coastal inundation on the coast (including sea level rise related to 
climate change). Economic losses associated with urban expansion into 
flood-prone areas increase by 2 percent per year, and climate change 
events can increase the potential impacts of hurricanes in the 
future.\7\ Wetland loss is significantly increasing flood damage, 
costing coastal states millions of dollars per year. For example, 
recent research shows that every wetland alteration permit in Florida 
costs an additional $1,000 in property damage per flood claim; all 
permits combined cost $30.4 million/year for the state.\8\
---------------------------------------------------------------------------
    \7\ Reducing Future Flood Losses: The Role of Human Actions, A 
Summary to the Disasters Roundtable. Sylves, Richard & Kershaw, 
Patricia Jones, The National Academies Press, Washington, D.C., 2004.
    \8\ Brody, S. D., Davis, Stephen E. III, *Highfield, Wesley E. and 
*Bernhardt, Sarah. (2008). A Spatial-Temporal Analysis of Wetland 
Alteration in Texas and Florida: Thirteen Years of Impact Along the 
Coast. Wetlands 28(1): 107-116.
---------------------------------------------------------------------------
    Coastal managers are requesting tools and services from NOAA to 
help assess and reduce hurricane impacts. NOAA provides products and 
services to help communities assess their risks and vulnerabilities, 
develop plans (e.g., land use, hazard mitigation, climate adaptation), 
and implement strategies to improve their resilience to the impacts of 
hurricanes and other forms of coastal inundation. Observations and 
models are also required to ensure accuracy and effectiveness of these 
products.
    In the 2007 Ocean Research Priorities Plan and Implementation 
Strategy developed by the National Science and Technology Council's 
Joint Subcommittee on Ocean Science and Technology, research priorities 
to help increase community resilience to natural hazards were 
identified, including the need to ``Apply understanding to develop 
multi-hazard risk assessments and support development of models, 
policies, and strategies for hazard mitigation. The H. John Heinz III 
Center for Science, Economics and the Environment and Ceres 
subsequently documented the impressive return on investment from storm 
mitigation and community preparedness in their report, Resilient 
Coasts: A Blueprint for Action. The National Institute of Building 
Sciences showed that every dollar spent on mitigation saves about four 
dollars on recovery costs.\9\ Still, efforts to increase community 
resilience to hazard impacts should not be confined to the built 
environment. Given the natural mitigation benefits, habitat protection 
and restoration are considered integral elements of hazard resilience. 
In fact, coastal wetlands in the United States are estimated to provide 
$23.2 billion worth of storm protection services each year.\1\
---------------------------------------------------------------------------
    \9\ Resilient Coasts: A Blueprint for Action, The H. John Heinz III 
Center for Science, Economics and the Environment and Ceres, 2009.
---------------------------------------------------------------------------
    The NSTC Subcommittee on Disaster Reduction (SDR) provides a 
Federal forum for information sharing, developing collaborative 
opportunities to leverage Federal research and investment, formulating 
science- and technology-based guidance for policymakers, and connecting 
with the U.S. policy community to advance informed strategies for 
managing disaster risks and encouraging risk-wise behaviors. The SDR 
recently released a series of hazard-specific implementation plans, 
including ones pertaining to coastal inundation and hurricanes. These 
plans, available from www.sdr.gov, were coordinated among Federal 
agencies to prioritize the Federal science and technology investment 
needed to foster preparedness and reduce the loss of life and property 
caused by natural hazards. NOAA is an active participant in the SDR.
    Some examples of current NOAA hazard mitigation work include:

    Assessing Risks

  <bullet> The Hazard Assessment Tools (delivered via Digital Coast) 
        help to construct websites that identify potential hazards in 
        specific locations. Website users identify the location by 
        address, owner name, or by clicking in the map to determine 
        hazards zone(s) in that location. Typical users include 
        planning and permitting departments, residents applying for 
        building permits, hazard mitigation officials, and natural 
        resource planners. Development of this and other Digital Coast 
        products is guided by a partnership network, which includes the 
        National Association of Counties, the Association of State 
        Floodplain Managers, and others.

  <bullet> NOAA and USGS are partnering to visualize the impacts of 
        local sea-level rise and understand adaptation options. A 
        prototype product that shows the impacts of sea-level rise on 
        the Delaware coast has been developed and a similar effort is 
        underway for Mississippi and Alabama, though these products are 
        broadly applicable and transferrable to other regions

    Developing Plans

  <bullet> Coastal communities manage multiple, complex stressors 
        ranging from hurricanes to economic downturns. The Mobile, 
        Alabama Chamber of Commerce is leading long term economic 
        development planning to help the community prepare for, and 
        respond to, such situations. In support of this effort, NOAA 
        and other partners are designing a planning framework using a 
        resilience-minded development approach that accounts for the 
        hazards posed by coastal storms, climate change, economic 
        downturns, and other stressors.

  <bullet> NOAA is developing programmatic guidelines to enable states 
        to better adapt to the impacts of climate change. The objective 
        is to encourage states to consider climate impacts when making 
        investments in coastal habitat restoration, land acquisition, 
        and facilities.

    Implementing Strategies

  <bullet> NOAA leverages partnerships with regional organizations, 
        such as the Gulf of Mexico Alliance (GOMA), to understand key 
        needs of coastal communities and ensure that NOAA's products 
        and services meet those needs. In FY 2009, NOAA received $4 
        million to support cooperative agreements with GOMA states to 
        address a variety of coastal issues, including resilience to 
        coastal storms.

    Models and Observations

  <bullet> NOAA is undertaking several activities to improve how storm 
        surge forecasts and impacts information are developed and 
        delivered. The NOAA Coastal Storms Program is working with the 
        Northern Gulf Institute to convene a group of surge modelers 
        and managers to develop a unified surge grid catalog for the 
        Gulf. Such a tool will result in more accurate, faster, and 
        cheaper surge analyses in the future.

Conclusion
    NOAA appreciates the Committee's interest in hurricane impacts and 
research in areas including storm structure, rapid intensity change, 
ocean-atmosphere interactions, storm surge, rainfall and inland 
flooding forecasts. NOAA's HFIP efforts are currently focused on 
improved track and intensity forecasts, wind fields, and storm surge, 
as well as the accompanying need for improved observations and 
computing capability. The key to success in improving hurricane 
prediction is leveraging all available national assets and capabilities 
to address this national need, including social science and economic 
research needed to enhance our Nation's preparation and mitigation in 
the face of the hurricane threat.
    Thank you for inviting me to testify about this challenge and we 
look forward to working with the Committee as this legislation moves 
forward.
                                 ______
                                 
      Prepared Statement of Dr. Gordon L. Wells, Program Manager, 
      Center for Space Research, The University of Texas at Austin

    Thank you, Mr. Chairman, and Members of the Committee for the 
opportunity to talk with you today.
    My name is Gordon Wells. I serve as Program Manager at the 
University of Texas at Austin's Center for Space Research. During major 
disasters, my team and I work in the State Operations Center of the 
Governor's Division of Emergency Management, where we use the results 
from a variety of forecast models to assist decisionmakers, including 
the State's elected leadership, to make decisions in response to a 
crisis, such as the landfall of a hurricane.
    The bill under consideration today to enact The National Hurricane 
Research Initiative receives my complete support and my request for 
your urgent consideration. In the 2 years since the National Science 
Board issued the report that serves as the intellectual foundation for 
Senate Bill 1485, Texas has experienced Hurricane Dolly, the second 
costliest hurricane to strike the U.S. coast in the month of July, and 
Hurricane Ike, which at $30 billion is the third all-time most damaging 
hurricane in U.S. history. By all available evidence, the problems to 
be addressed by the scientific enterprise enabled by Senate Bill 1485 
are steadily escalating.
    Improvements to forecast modeling and simulation covered by the 
bill are particularly important. Let me tell you why.
    If Jack Colley, the Chief of the Texas Division of Emergency 
Management, were here today, he would emphasize that Texas mobilizes to 
respond to an emergency based upon threat and does not wait for a 
Presidential declaration or other assurances of Federal support before 
taking action. When a hurricane threatens the Texas Gulf Coast, 
thousands of local and state first responders perform tasks for which 
they have trained and exercised according to guidance issued by the 
Division of Emergency Management. The only way to prepare appropriate 
guidance to orchestrate such a widespread, multi-faceted effort is with 
reference to the results of model forecasts. For instance, in 
preparation for a hurricane, one of my first responsibilities in 
working with Chief Colley is to create the countdown clock for the 
contingency time line used by the state to synchronize response 
operations. For a Cape Verdes storm crossing the Atlantic, that clock 
is calculated by analyzing results from a series of long-range forecast 
models to estimate the timing that would potentially bring the storm to 
Texas. We might track a system for several days before triggering the 
120-hour countdown for operations in response to a storm crossing the 
eastern Caribbean or entering the Gulf of Mexico.
    If the storm does indeed intensify to become a tropical cyclone and 
follows a track toward the coast of Texas, forecast models are used to 
define the impact region that will likely be subjected to high winds, 
storm surge and inland flooding. Based on the projections, the state 
positions assets to meet the needs for evacuation, search-and-rescue 
and re-entry into the damaged area as well as the communications and 
logistical support necessary to maintain the continuity of local 
government.
    Because storm surge is by far the most lethal danger accompanying a 
hurricane, the state places special emphasis on the results from 
hydrodynamic models, especially the Sea, Lake and Overland Surge from 
Hurricanes (SLOSH) model run by the National Hurricane Center and the 
Advanced Circulation (ADCIRC) model that we run on the NSF-funded 
Ranger supercomputer at the Texas Advanced Computing Center at the 
University of Texas. The ADCIRC model is the creation of a national 
team of modelers, including Rick Luettich of the University of North 
Carolina, Joannes Westerink of the University of Notre Dame, who 
originated the code for ADCIRC, Randall Kolar of the University of 
Oklahoma and Clint Dawson of the University of Texas at Austin, who has 
led the algorithm development for ADCIRC. While the National Hurricane 
Center's SLOSH model predicts the regional risk of storm surge, the 
high spatial resolution and additional physical parameters computed by 
ADCIRC permit more specific forecasts to be made of the magnitude and 
extent of coastal inundation.
    ADCIRC is run in three different modes. First, in forecast mode, it 
leverages the more than 60,000 processors available on the Ranger 
supercomputer to complete a high resolution run in just over an hour, 
allowing the impact forecast to be updated with each advisory issued by 
the National Hurricane Center. During Hurricane Ike, the ADCIRC model 
correctly predicted the magnitude of the storm surge that struck 
Galveston Island, the Bolivar Peninsula and inland areas of Chambers 
and Jefferson counties. With the forecasts made by ADCIRC and SLOSH, 
the state targeted search-and-clear operations in the predicted impact 
region. The teams led by Texas Task Force One rescued 634 individuals 
who could not self-evacuate before Hurricane Ike made landfall. Many 
would likely have died without the assistance of the U.S. Coast Guard, 
Texas Task Force One, Texas Military Forces and allied search-and-
rescue teams.
    ADCIRC is also run in forensic mode. Although it is difficult to 
find any positive outcome in the aftermath of a large hurricane, the 
evidence left behind by destructive storms can be used to calibrate and 
improve the performance of future models. Most of the high-resolution 
hindcasts of hurricanes Katrina, Rita and Ike have been produced using 
the ADCIRC model. Better physical descriptions of the hydrodynamic 
processes of large landfalling storms have resulted from these forensic 
investigations.
    Finally, ADCIRC is run in a mode that facilitates the design and 
planning of future protective coastal infrastructure. In the wake of 
recent destructive hurricanes, both ``soft'' options, such as wetlands 
restoration and restrictions on land use practices, and ``hard'' 
options, such as the construction of seawalls and giant storm gates, 
have been proposed. One current idea is the Ike Dike conceived by 
William Merrill of Texas A&M University at Galveston. The Ike Dike 
would shield a sixty-mile section of the Upper Texas Gulf Coast, 
including Galveston Island, Galveston Bay and the Houston Ship Channel. 
To assess the concept, Clint Dawson and Jennifer Proft of the 
University of Texas at Austin have run ADCIRC simulations for Hurricane 
Ike with and without the proposed dike and for a ``Mighty Ike'' 
Category 4 version of the hurricane with and without the dike. These 
are the first of many computer simulations that can be used to test the 
effectiveness of different kinds of protective infrastructure. The 
results will allow the selection of the best combination of design 
elements capable of withstanding a multitude of different hurricane 
landfall scenarios.
    In support of The National Hurricane Research Initiative, I would 
amplify two subjects that are contained in Senate Bill 1485 with 
additional emphasis based on my own experience.
    First, the bill authorizes the development of a National 
Infrastructure Data base to characterize the physical, social and 
natural infrastructure of coastal regions. Although the language 
mentions social factors, their importance is not highlighted to the 
same extent as the physical factors. As a major hurricane approaches 
the coast, the ``threat geography'' is not defined solely in terms of 
the magnitude and distribution of the physical impact to the region, 
where high winds, storm surge and inland flooding will occur. Beyond 
the physical risks, it is equally important to know the character and 
geographic distribution of vulnerable populations in the impact area. 
The concentration of certain portions of the coastal population, 
including elderly, fixed-income residents living in older housing 
stock, individuals who are homebound with medical special needs, low-
income, single-parent families and those who do not speak English as 
their primary language among many other social factors need fully 
documentation. The intersection of these societal vulnerabilities with 
the physical risks, where the geographic distributions of the physical 
and social components overlap, defines the threat geography of the 
disaster. First responders need to know more than simply where the 
worst physical impacts are predicted to occur. They need to know who 
will be affected and where they live.
    Second, while the bill discusses many requirements to improve our 
scientific knowledge of hurricanes and our ability to model and 
forecast their dangers, it contains little specific language describing 
how that knowledge needs to be communicated to the public. The greatest 
problem facing our coastal population is the failure of individuals to 
understand their personal risk to a natural disaster. Victims of events 
are often heard to comment that indeed they knew that the hurricane was 
going to be bad, perhaps as bad as or worse than one they had lived 
through, but they did not believe that the storm would be so bad in 
their part of town, in their neighborhood or in their home. Greater 
emphasis must be placed on communicating the results of forecast 
modeling and simulation to the public in ways that enable the 
comprehension of personal risk. Advances in the visualization of model 
results, particularly in the production of photorealistic, three-
dimensional portrayals of inundation and wind damage at the 
neighborhood level, offer new techniques to inform the public. Studies 
should be conducted with a cross-section of coastal residents to 
determine what methods of communication are most effective in leading 
citizens to make accurate judgments of their level of personal risk and 
then take effective measures to ensure their own safety.
    Having summarized these areas deserving additional emphasis, I 
close by reasserting my support for the measures contained in The 
National Hurricane Research Initiative and once again call for its 
urgent consideration and rapid approval by the Congress.
                                 ______
                                 
    Prepared Statement of Leslie Chapman-Henderson, President/CEO, 
             Federal Alliance for Safe Homes, Inc.--FLASH

I. Introduction
    Thank you Senator. Committee Members.
    My name is Leslie Chapman-Henderson and I am here today 
representing the Federal Alliance for Safe Homes--FLASH, Inc. We are a 
partnership of more than 100 public, private and nonprofit 
organizations and leaders who have dedicated the past eleven years to 
making America a more disaster-resistant nation. Our mission is to 
``strengthen homes and safeguard families'' from disasters of all 
kinds, including earthquakes, floods, hail, hurricanes, lightning, 
tornadoes and wildfires.
    Our Legacy Partners include FEMA, Home Depot, International Code 
Council, NOAA/National Weather Service, RenaissanceRe, State Farm, 
WeatherPredict Consulting Inc. and USAA.
    The Federal Alliance for Safe Homes helps reduce impacts from 
catastrophic losses like windstorms by providing the public with 
accurate and timely information on how to make homes more disaster-
resistant--either at the time of construction or with post-construction 
hardening or retrofitting techniques. We want consumers to understand 
that they can protect their property, and that ``luck'' is not their 
best tool when they confront natural disaster threats.
    Our work is part of a movement to establish disaster safety as a 
public value in this country. We support a built environment strong 
enough to reasonably resist and survive natural disaster threats. We 
specifically focus on mitigation and the collective work undertaken 
beforehand to prevent or lessen impacts of hurricanes and other 
threats.
    Our goal is to create widespread public demand for safer, better-
built homes. We modeled this approach after the highway safety 
movement, which succeeded in creating American demand for safe, well-
built vehicles with seat belts and air bags. Just as the highway safety 
movement has saved lives on our roads, the disaster safety movement can 
save lives and reduces losses from catastrophic events. We recognize 
the following elements as essential to the success of the disaster 
safety movement:

    1. Model building codes that are enacted and enforced intact

    <bullet> Applied to new construction, rehabilitated construction 
            and restored construction, especially following large scale 
            catastrophes

    2. Financial incentives

    <bullet> Including banking, insurance, real estate and tax

    3. Mitigation public policy

    <bullet> Home inspection and matching grant programs for home 
            ``hardening'' or retrofitting activities (combine disaster 
            mitigation and weatherization retrofit activities 
            addressing attics, walls, windows and doors to leverage 
            economies of scale)

    <bullet> Federal mitigation funding levels linked to the quality of 
            the locally adopted building codes

    4. Public awareness

    <bullet> Create a public value and market demand for mitigation

    5. Professional education

    <bullet> Architecture, construction, emergency management and 
            engineering

    6. Research and innovation

    <bullet> Continuously enhanced products and construction techniques

    <bullet> Effective and ongoing knowledge and technology transfer to 
            ensure end use

    <bullet> Reliable system to support superior product testing and 
            consumer protection

    We convene stakeholders that serve in all of the above roles, and 
our primary activities include public policy forum events, public 
awareness campaigns featuring free consumer resource and referral 
services, integrated multi-media campaigns, accredited professional 
education programs, extensive public outreach and subject matter 
expertise as requested by policy leaders.
    Below are some of our initiatives:

  <bullet> Blueprint for Safety--(www.blueprintforsafety.org) A 
        national, award-winning curriculum for contractors, design 
        professionals and home inspectors featuring training on 
        disaster-resistant construction techniques. Blueprint 
        recommendations are referenced as the basis for mitigation 
        policies and programs enacted in many states and 
        municipalities.

  <bullet> Mitigation Leadership Forums 
        (www.mitigationleadership.com)--The risk mitigation leadership 
        forums bring together academics, scientists and public and 
        private sector representatives to advance hurricane risk 
        mitigation scientific efforts and public awareness.

  <bullet> The Tale of Two Houses--Wildfire--A motivational video story 
        of seven families impacted by the 2007 San Diego Witch Creek 
        Fires. One home in the center of the cul-de-sac survived while 
        six burned to the ground because one homeowner took 
        affirmative, prescriptive steps to prevent wildfire losses 
        while others did not. The compelling FLASH video story is the 
        consumer outreach basis of the National Wildfire Education 
        Initiative launched in 2007, and is the subject of an upcoming 
        retrospective by a national news program.

  <bullet> The Tale of Two Houses--Wind--A motivational video story of 
        two neighboring families and homes affected by Hurricane 
        Charley in 2004. The story highlights dramatically different 
        building performance and outcomes based on the different 
        building practices used. The Tale of Two Houses program 
        inspired two seasons of nationally syndicated television shows 
        and joint work with home improvement guru Bob Vila.

  <bullet> Turn Around--Don't Drown--A jointly sponsored public 
        awareness life safety campaign with the National Weather 
        Service that helps raise awareness of the risks associated with 
        walking or driving into moving water. The slogan is in 
        widespread use by broadcast meteorologists, forecasters and 
        others.

  <bullet> StormStruck: A Tale of Two Homes (www.stormstruck.org)--
        FLASH and three of its Legacy Partners (RenaissanceRe, Simpson 
        Strong-Tie and State Farm) opened this 3 year, interactive 
        ``edu-tainment'' experience in August of 2008 at Epcot at the 
        Walt Disney World Resort in Florida. The 4-D, virtual storm 
        experience combines fun and entertainment with game-based 
        learning to provide more than four million annual guests to 
        Epcot with motivation and information on how to protect their 
        homes and families from severe weather of all kinds. After just 
        1 year, the StormStruck experience is so successful that FLASH 
        is developing a parallel approach to earthquake ``edu-
        tainment'' at Disneyland in California.

II. Background--Windstorm Risk
    We believe that the U.S. built environment is highly vulnerable to 
windstorm hazards, and the vulnerability is increasing. There are 
various ways to characterize the level and demonstrate the increase, 
including:

    A. Coastal Population Growth. According to the U.S. Census Bureau, 
as of July 1, 2007, 35.3 million people lived in areas of the United 
States most threatened by hurricanes.\1\ These areas are defined as the 
coastal portions of Texas through North Carolina and represent 
approximately 12 percent of the U.S. population (Coastal counties 
include those with at least 15 percent of their total land area within 
the Nation's coastal watershed.\2\). This figure represents an increase 
from the 1950 level of 10.2 million, which represented 7 percent of the 
U.S. population. Florida alone represents 6 percent of the current 
coastal population.
---------------------------------------------------------------------------
    \1\ Source: Population Estimates http://www.census.gov/popest/
estimates.php.
    \2\ Source: http://www.census.gov/geo/landview/lv6help/
coastal_cty.pdf.

    Three of the 20 most populous metropolitan areas from 2006 to 2007 
were within Atlantic or Gulf coastal areas from North Carolina to 
Texas.\3\ These areas are:
---------------------------------------------------------------------------
    \3\ Source: http://www.census.gov/Press-release/www/releases/
archives/population/011671.html.

---------------------------------------------------------------------------
  <bullet> Houston-Baytown-Sugar Land, Texas (sixth)

  <bullet> Miami-Fort Lauderdale-Miami Beach, Fla. (seventh)

  <bullet> Tampa-St. Petersburg-Clearwater, Fla. (19th)

    B. Historic Losses \4\ (United States). Disaster losses tell a 
compelling picture of our economic and societal vulnerability to 
windstorms. From 1987 to 2006 the inflation-adjusted, insured losses 
break down as follows:
---------------------------------------------------------------------------
    \4\ Insurance Information Institute--Presentation to the National 
Hurricane Conference--http://server.iii.org/yy_obj_data/binary/
784319_1_0/nhc2008.pdf.

---------------------------------------------------------------------------
  <bullet> $297.3 billion--total disaster losses

  <bullet> $137.7 billion, or 46.3 percent--tropical cyclone losses

  <bullet> $77.3 billion, or 26 percent--tornado losses

  <bullet> $19.1 billion, or 6.4 percent--earthquake losses

    Seven of the 10 most expensive hurricanes in U.S. history occurred 
between August 2004 and October 2005.

    C. Today's Insured Values (Sample: Florida).

  <bullet> 4.5 million single family homes

  <bullet> $1.8 trillion in residential property

  <bullet> $1.0 trillion in commercial property

    D. Coastal Construction (Sample: Galveston, Texas).\5\
---------------------------------------------------------------------------
    \5\ Source: Insurance Information Institute from ``A Texas-Sized 
Hunger for Gulf Coast Homes,'' New York Times, March 18, 2007 and 
www.1900storm.com and www.twia.org accessed July 9, 2007.

  <bullet> More than $2.3 billion in residential, commercial and public 
---------------------------------------------------------------------------
        construction was under way in 2007

  <bullet> More than 6,500 residential units under construction

  <bullet> Mostly condos, including towers up to 27 stories high

  <bullet> One Centex Homes development--2,300 condos and houses on 
        1,000 acres

  <bullet> Galveston is the site of the deadliest natural disaster in 
        U.S. history

  <bullet> At least 8,000 people were killed in a 1900 hurricane

  <bullet> 3,600 homes were destroyed

    The seawall in Galveston is 15.6 ft. high; Katrina's storm surge 
was nearly 30 feet. Insured losses today from a repeat of the 1900 
storm would exceed $21 billion, and it would become the 3rd most 
expensive hurricane in U.S. history (after Katrina and Andrew).

    E. Attributes of the Built Environment. Vulnerability will continue 
to increase due to a variety of economic and other factors, including 
the aging of our built environment, the percentage of the built 
environment constructed without use of model building codes and the 
increased cost of new construction.

III. Commentary/Response to Committee Questions

Question 1.--How can model building codes improve the resiliency of 
        structures?

A. Model, Engineering-Based Building Codes are the Key to Resiliency
    The greatest challenge in implementing improvements to new or 
existing buildings is a continuous breakdown in communication and 
knowledge transfer between homeowners, homebuilders, policymakers, 
regulators and the marketplace. During years of post-storm interviews 
and damage investigations, we have met stakeholders who are frustrated 
to learn of opportunities lost. They are astonished to learn that an 
additional handful of nails may have made a difference in keeping a 
roof on during a hurricane. This is especially unfortunate since loss 
of roof covering and roof sheathing failure during windstorms is often 
how a total loss of structure and contents begins.
    Model building codes improve the resiliency of structures by 
incorporating uniform, consistently applied and continuously updated 
construction practices that provide protection from windstorm damage. 
Some of the strongest, specific attributes for high wind and water-
intrusion protection include:

  <bullet> Roofs--Bracing gable ends

  <bullet> Roof Decks--5/8" Thickness, Plywood v. Oriented Strand Board

  <bullet> Roof Coverings--High wind shingles or tiles with mechanical 
        attachment like nails or screws

  <bullet> Secondary Water Barrier-Applied under roof covering or in 
        attic

  <bullet> Roof-to-wall connections--Metal Connectors v. Nails

  <bullet> Entry doors--Impact-resistant

  <bullet> Garage doors--Impact-resistant

  <bullet> Window Protection--Code-approved shutters, coverings or 
        impact-resistant window systems

    Use of model codes at the time of new construction is the best 
means of protecting consumers from economic losses and potential 
injuries or even death. This was demonstrated during the 2004-2005 
hurricane seasons as homes constructed to modern, model building codes 
outperformed those built to older, less stringent standards.
    A 2005 University of Florida/Institute for Business and Home 
Safety/FEMA post-storm engineering study documented decreased damage 
vulnerability for homes with opening protection like hurricane shutters 
or impact-resistant windows and doors. When looking at building 
components, the study found damage to post-1996 homes resulted in:

  <bullet> 44 percent fewer total roof covering replacements

  <bullet> 38 percent fewer claims for window glass and/or frame damage

  <bullet> 32 percent fewer total garage door replacements
    Instead, newer homes needed only partial roof covering replacement, 
window damage was primarily limited to screens, and garage door repairs 
were minor, such as track adjustments or dent repairs.
    Despite the clear case for strong building codes to reduce damage, 
model codes are not always adopted and enforced intact. Local 
amendments are used to weaken the code quality or the code is not 
updated swiftly enough to meet the threat of future storms.

B. The Challenge of Adopting and Enforcing Intact Model Building Codes
    Despite the deadly and costly lessons of recent windstorms, many 
hurricane-prone states have adopted model codes only on a partial basis 
or have failed to include adequate enforcement provisions. 
Surprisingly, some states and local governments still lack any type of 
model building code.
    Further, model codes are often undermined, weakened or adversely 
amended upon adoption at the local level. Many coastal, windstorm-
exposed communities adopt the model residential codes like the 
International Residential Code, but then insert provisions that remove 
requirements for protecting windows with code-approved shutters or 
other opening protection.
    Florida's Building Code included an ``exception'' along these lines 
for its Panhandle region until 2007. Another example of this problem is 
a current effort underway by a local architects' association chapter 
that is working to weaken windborne debris/opening protection 
requirements in coastal Long Island. While Long Island may not have the 
hurricane frequency of Florida, we believe that the tax-payer impact 
and financial severity for a potential Long Island strike makes a clear 
case for windborne debris protection. Incorporating protective devices 
at the time of new construction is the most affordable way to provide 
life and property protection.
    Expanded investment into engineering research could speed the 
process of enhancing building codes by providing a clearer case for 
swift adoption of the newer, model codes and continuous updating based 
on real time storm findings. The current system of engineering research 
is inadequately funded, inconsistently funded and poorly coordinated.

C. The Challenge of Keeping Pace
    Model building codes impact approximately 2 percent of the built 
environment in any non-disaster year through new construction, however 
that percentage can increase dramatically in a post-storm rebuilding 
period. As such, it is essential to put policies into place to align 
post-storm relief and construction with implementation of enhanced, 
modern building codes. Failing to embrace and enforce model codes 
during post-storm recovery and rebuilding represents a lost opportunity 
to rebuild damaged communities in a stronger way.
    The private and public academic, engineering, research and 
scientific communities provide ongoing information regarding enhanced 
construction techniques to reduce windstorm hazards. This information 
can be integrated into model building codes eventually. However, the 
pace is often too slow to help storm victims make use of post-
catastrophe findings.
    For example, widespread loss of roof covering and failed soffits 
caused water intrusion into thousands of homes during 2004-2005, yet 
post-storm rebuilding efforts failed to promptly include new, uniform 
roofing standards requiring enhanced nailing and installation of 
secondary water barriers or bracing of soffits.
    And many of these same communities still lack requirements for 
stronger nailing patterns and installation of secondary water barriers.
    This situation perpetuates the cycle of ``build-destroy-rebuild'' 
that our organization and partners are working to suspend.

Question 2.--How can model building codes and mitigation reduce 
        economic impacts and post-storm recovery costs overall?

A. Studies Address Cost/Benefit Ratios on Mitigation and Building Codes
    Conservatively derived measurements of the value of mitigation 
deliver a compelling case for mitigation. Consider these findings from 
an independent study by the National Institute of Building Sciences: 
\6\
---------------------------------------------------------------------------
    \6\ Natural Hazard Mitigation Saves: An Independent Study to Assess 
the Future Savings from Mitigation Activities, National Institute of 
Building Sciences, December 2005, accessed at http://www.nibs.org/MMC/
mmcactiv5.html.
---------------------------------------------------------------------------
    Mitigation provided a return on investment of up to four-to-one. A 
10-year snapshot of FEMA mitigation grants and projects found that 
mitigation:

  <bullet> Reduced human losses (death, injuries and homelessness)

  <bullet> Reduced direct property damage

  <bullet> Reduced direct business interruption loss

  <bullet> Reduced indirect business losses

  <bullet> Reduced non-market damage

  <bullet> Reduced cost of emergency response

    The NIBS study was the first of its kind to establish reliable 
cost/benefit ratios for mitigation and building codes. Additional 
applied science, programmatic evaluation and behavioral studies are 
needed to further establish the case for widespread and consistent 
investment in building codes and mitigation.

B. Catastrophe Modeling Identifies Potential Economic Impact of 
        Building Codes and Mitigation
    Modeling the strength of existing building stock based on the 
historic building code practices and structural attributes provides a 
compelling case for implementing windstorm mitigation; however, 
additional data sets of residential construction attributes on a house 
by house basis would provide valuable insights and afford the 
opportunity to verify modeled projections.
    The tables in Appendix A illustrate relevant examples of scenarios 
projected by comparing the current dollar value of annual, expected 
catastrophe losses on a state-by-state basis based on:

        1. Current building codes in force

        2. Lowering standards to pre-1974

        3. Implementation of model codes caught up to 2008

        4. Implementation of code-plus programs like the FLASH 
        Blueprint for Safety disaster-resistant construction curriculum

    It is important to note that ``code-plus'' does not always denote 
construction techniques that exceed required code minimums. Typically, 
code-plus refers to the emerging or future code requirements and/or 
practices that are not yet addressed by codes and are ``silent'' in the 
body of existing model codes.
    This analysis is available for the following states in Appendix A: 
\7\<SUP>*</SUP>
---------------------------------------------------------------------------
    \7\ Source: Risk Management Solutions, Inc.
    \*\ Appendix A is retained in the Committee files.

---------------------------------------------------------------------------
  <bullet> Alabama

  <bullet> Connecticut

  <bullet> Delaware

  <bullet> District of Columbia

  <bullet> Florida

  <bullet> Georgia

  <bullet> Louisiana

  <bullet> Maine

  <bullet> Maryland

  <bullet> Massachusetts

  <bullet> Mississippi

  <bullet> New Hampshire

  <bullet> New Jersey

  <bullet> North Carolina

  <bullet> Pennsylvania

  <bullet> Rhode Island

  <bullet> South Carolina

  <bullet> Texas

  <bullet> Vermont

  <bullet> Virginia

  <bullet> West Virginia
C. Post-storm Forensic Engineering Studies Validate Superior Building 
        Practices
    The previous-referenced University of Florida/FEMA/Institute for 
Business and Home Safety post-storm engineering study found that:

  <bullet> Homes built before 1996 suffered an average loss of $24 per 
        square foot or $48,000 for a 2,000-square foot home, according 
        to claims filed after the hurricane. Insured homeowners paid 
        approximately $2,600 on average through their hurricane 
        deductible.

  <bullet> The average size and severity of the loss dropped by 42 
        percent to $14 per square foot for homes built between 1996 and 
        2004 when modern engineering-based building codes were in place 
        and builders and building officials were educated about the 
        requirements.

    Expanded, reliable funding for academic institutions to perform and 
share post-storm forensic engineering studies and to establish a 
consistent, systematic approach to data gathering and analysis is 
needed. Each storm's finding could be banked into a database for use 
and information sharing. This would provide an invaluable and reliable 
insight into building performance in windstorm events.

Question 3.--How can assistance programs focused on improving building 
        integrity mitigate storm damage and reduce recovery costs?
    Two states (Florida and South Carolina) have implemented landmark 
programs to address the challenge of hardening older or non-code homes 
to withstand hurricanes. Several more (Alabama, Louisiana, Mississippi 
and Texas) are either bringing similar programs online or examining the 
feasibility of doing so. These programs help residents who live in 
harms' way that do not enjoy the benefit of modern building codes or 
code-plus practices.
    These programs provide the following:

  <bullet> Consumer Education

  <bullet> Home Inspections for Wind Mitigation Detailed Homeowner 
        Reports

  <bullet> Matching Grants for Retrofitting

  <bullet> Hurricane Resistance Ratings (0-100) Professional Education 
        and Training
A. Florida--My Safe Florida Home \8\ (www.mysafefloridahome.com)
---------------------------------------------------------------------------
    \8\ 2009 My Safe Florida Home Annual Report.
---------------------------------------------------------------------------
    In 2006, state lawmakers took action and appropriated $250 million 
to create the Florida Comprehensive Hurricane Damage Mitigation 
Program, and directed the Florida Department of Financial Services 
(DFS) to implement and administer the program. Subsequently renamed the 
My Safe Florida Home (MSFH) program, it was created to help Floridians 
identify and make improvements to strengthen their homes against 
hurricanes through free hurricane mitigation inspections and grant 
funds. Florida Statutes direct the MSFH program to target its resources 
to homeowners living in single-family, site-built homes in Florida by 
providing up to 400,000 free hurricane mitigation inspections and at 
least 35,000 grants.
    To maximize service delivery and leverage resources, the MSFH 
program delivers services through the Department of Financial Services, 
local governments and through partnerships with non-profit 
organizations like Volunteer Florida and local housing organizations.
    The MSFH program uses a trained workforce of more than 1,200 
hurricane mitigation inspectors to perform free inspections and more 
than 2,000 licensed contractors to make specific improvements, 
including but not limited to protecting or replacing window and door 
openings, and strengthening roofs by bracing gable end walls. The 
program has developed new technology and undertaken public outreach 
efforts to further enhance service delivery. As of December 31, 2008:

  <bullet> More than 88 percent of grant program participants were 
        using grant monies to protect their home's openings--windows, 
        doors and garage doors

  <bullet> Ninety-nine percent of homeowners approved for a grant live 
        in the wind-borne debris region

  <bullet> Forty-four percent of homeowners approved for a grant are 
        insured by the state-run Citizens Property Insurance 
        Corporation

  <bullet> Average home age is 25 years

  <bullet> Average insured value is $272,315

  <bullet> Average buying power is $7,000 (MSFH pays 1/2)

  <bullet> Average savings reported by homeowners who retrofitted their 
        home is $773

  <bullet> Homes retrofitted moved an average increase of 18 points on 
        the rating scale

  <bullet> The program retrofitted an average of 258 homes per week 
        during the past 2 years

    Summary of My Safe Florida Home Program Outcomes

  <bullet> $170 million has been set aside for grants. Of this amount, 
        $108 million has already been paid out which has been used to 
        buy hurricane materials (mainly opening protection) and for 
        installation services. At an average sales tax rate of 6 
        percent, that's $6.5 million in sales tax revenue.

  <bullet> 2,271 contractors signed up to participate in the My Safe 
        Florida Home program. Many report that they would have gone 
        bankrupt more than a year ago had it not been for the program.

  <bullet> The MSFH inspection firms, at one point in time, employed a 
        total of 900 inspectors to perform $58 million dollars worth of 
        inspections. Many of these inspectors are contractors, 
        insurance adjusters, engineers and building inspectors who 
        experienced a slow down in their work sectors and needed the 
        job opportunities through the MSFH program.

  <bullet> Retrofitting 50 to 75 houses a week creates jobs for 160 
        Floridians. The My Safe Florida Home program retrofits nearly 
        300 homes a week, on average, so nearly 1,000 jobs are created 
        in any given week.

    According to an independent analysis of the program, the MSFH 
return on investment is $2.75 for each $1 spent.

B. South Carolina--South Carolina Safe Home (www.scsafehome.sc.gov)
    This program, while smaller than Florida's program, is ongoing and 
provides a steady source of home hardening opportunities for low income 
residents of South Carolina while increasing market attractiveness to 
private insurance capital. These inspections are fee-based and 
retrofits include roof and window replacements, roof to wall tie-downs, 
gable-end bracing and storm shutters. As of June, 2009:

  <bullet> 761 grants totaling approximately $4 million awarded

  <bullet> Workforce includes:

      --119 SC Safe Home Certified Wind Inspectors

      --57 SC Safe Home Certified Contractors

      --3 SC Safe Home Staff Members

  <bullet> Approximately 65 percent of the applicants qualify as low-
        income

  <bullet> Average age of home retrofitted is 27 years

  <bullet> Average value of home retrofitted is $91,786

  <bullet> Approximately 76 percent of the grantees elected to retrofit 
        their roof

  <bullet> New windows and/or hurricane shutter systems for more than 
        150 homes

  <bullet> New hurricane rated building code compliant roofing systems 
        for more than 500 homes \9\
---------------------------------------------------------------------------
    \9\ The majority of homes receiving new roofing systems are 
replacing roofing systems installed following Hurricane Hugo in 1989. 
These older roof systems were constructed prior to the adoption of the 
statewide building code in 1998.

---------------------------------------------------------------------------
  <bullet> Homeowners report insurance savings up to 23 percent

  <bullet> Homeowners report an average 29 percent savings in their 
        energy costs after replacement windows are installed

    Both of these programs lack necessary resources and funding despite 
the fact that they widely acclaimed and considered successful. These 
state program models should be examined and considered as a framework 
for national best practices or model policy programs for all hurricane-
prone states. Research could facilitate this evaluation and ensure that 
the final program fits into existing FEMA, HUD and DOE program 
guidelines.

IV. The Case for Integration: Strong Building Codes and Mitigation are 
        Green and Energy Efficient
    Consider the environmental value following catastrophic windstorms 
of building structures sturdy enough to survive instead of becoming 
storm debris that clog landfills. Hurricane Katrina destroyed homes, 
buildings, forests, and green spaces and left behind 118 million cubic 
yards of debris, more than enough to fill the Louisiana Superdome 22 
times over at a cost of $4 billion. One year earlier in 2004, workers 
removed more than forty million cubic yards of debris from Florida 
counties that would have filled 75 college football stadiums from top 
to bottom. The storms dumped debris on the streets, highways, curbsides 
and private yards and included fallen trees, limbs and trash from 
damaged buildings on private and public property.
    According to local residents on Galveston Island, each high tide 
immediately following Hurricane Ike in 2008 seemed to dump a load of 
debris on the beaches. One four-mile stretch produced enough debris to 
fill 3,000 industrial-size trash bags just 2 week after the storm.
    Eliminating roof shingles and tiles, framing, decking, siding, 
windows, and personal property from the debris field would reduce the 
post-storm relief costs, accelerate recovery and provide beneficial 
environment protection.
    Weatherization and Mitigation Activities Can and Should Be Combined
    Mitigation inspections complement energy audits as it is 
financially cost-effective and practical to inspect housing components 
such as the roof, attic, windows and doors for both energy and wind 
mitigation during one inspection. Further, existing products in the 
marketplace meet the requirements of both energy and mitigation.
    Product examples include windows that deliver debris impact-
resistance as well as energy efficiency; closed cell spray foam 
insulation for attics that save energy and provide a secondary water 
barrier for wind-driven rain; and spray foam and comparable insulation 
products that provide additional wind uplift resistance by helping 
strengthen joints between roof decking and framing members.
    Research to identify and refine synergies between disaster 
mitigation and energy efficiency products and techniques would be 
invaluable. Further, protecting taxpayers' dollars invested in 
weatherization of homes in hurricane-prone regions by mitigating those 
same homes for wind and flood damage is sound. If we do not, 
weatherized homes destroyed in the next hurricane or flood could 
represent a waste of taxpayer dollars.

V. Conclusion
    Immediately enhancing our Nation's building practices with better 
adoption and enforcement of model building codes for new construction 
and mitigation programs to retrofit existing structures will reduce 
impacts from windstorm damage to families and communities. Specific 
strategies should:

  <bullet> Provide increased funding for scientific research, 
        innovation, behavioral research and public awareness programs 
        regarding building structure performance

  <bullet> Accelerate adoption of new construction technology findings 
        into model building codes

  <bullet> Establish an integrated, standardized approach to conducting 
        and sharing post-storm forensic research findings to support a 
        better understanding and acceptance of the value of adoption of 
        strong building codes for windstorm

  <bullet> Enhance and accelerate the knowledge transfer of all 
        research findings to ensure that communities benefit from 
        findings and codes are updated on a timely basis

  <bullet> Enhance Federal disaster mitigation and relief funding for 
        communities that enact intact, model building codes and resist 
        efforts to weaken codes upon adoption at the local level

    It is our belief that this country needs to embrace a high-quality 
system of research-informed, engineering-based building codes and 
mitigation programs to ensure optimal construction practices and 
windstorm damage prevention that benefit all citizens. Research can 
improve and sustain model building codes and mitigation programs in a 
manner that enhances our built and natural environment. When that 
happens, we will prevent deaths, reduce injuries and avoid needless 
economic ruin for families and communities from disasters of all kinds.

    Senator Nelson. Dr. Droegemeier, tell me, from 1987 to 
2006, hurricanes caused $137 billion in insured losses, whereas 
earthquakes caused 19 billion in losses. Yet, hurricanes 
receive substantially less money in research funding than 
earthquakes. Can you share with us why this might be?

     STATEMENT OF DR. KELVIN K. DROEGEMEIER, PROFESSOR OF 
 METEOROLOGY, UNIVERSITY OF OKLAHOMA; MEMBER, NATIONAL SCIENCE 
  BOARD; AND CO-CHAIRMAN, TASK FORCE ON HURRICANE SCIENCE AND 
                          ENGINEERING

    Dr. Droegemeier. Well, in fact, Senator--let me thank you 
and your colleagues for holding this hearing, for your 
tremendous support of--and recognizing the importance of 
hurricanes to our society. You've nicely laid out some of the 
challenges we face, the economic and societal impacts, the 
tremendous loss of life that occurs, so I really thank you for 
that.
    To your question, Senator, that was, in fact, one of the 
things that motivated the National Science Board to begin 
looking at the notion of why, in fact, we don't have a 
concerted, focused effort on hurricanes. Not in the sense that 
we were competing with the earthquake community, but we really 
look to them as a role model, to some extent. They've done a 
great job of mobilizing the necessary assets, the intellectual 
capital, the talent, and have really attacked the problem in a 
credible way.
    And so, we said hurricanes, as you mentioned, are very 
devastating, huge losses, so why do we not have that? So, the 
Board really set upon a course to actually address that 
question by putting together what we think is a thoughtful 
plan, a really focused plan, a very balanced approach for 
addressing the hurricane problem, not just as a weather 
problem, which, in fact, has been the case for a long time, and 
appropriately so, but if you look at the hurricane, the 
hurricane is really a weather-driven social-science, 
infrastructure, economic, policy problem, in its many 
dimensions, all the way from installing sensors in the field to 
collect data, like they do for earthquakes; taking those data, 
putting them into predictive models; predicting where and when 
hurricanes are going to form, the intensity, the track; and 
providing uncertainty estimates to those types of quantities; 
looking at evacuating, mobilizing people for predisaster 
preparation; the actual landfall, the post-response recovery 
and rebuilding. So, it's a problem that is really unique. And 
it's actually different than an earthquake problem because of 
its totality, the totality of what it encompasses, from sensors 
in the field to prediction, to human response, behavior, 
recovery, and that sort of thing.
    And so, what the National Science Board did in recognizing 
that fact, was to put together this plan for a national 
initiative that really would look to the earthquake community 
as a good example, a role model, yet taking it in the context 
of hurricanes and asking, What research do we need? Who needs 
to be involved? What are the key challenges? And especially, 
what are the priorities? What needs to come first?
    And one of the things that I think, as lawmakers, you might 
be interested in knowing--and this has some similarity to 
earthquakes--how predictable are hurricanes? Fundamentally, how 
predictable are these things? And the reason that is important 
to you is, if we're 90 percent of the way to predicting 
hurricanes, which I don't think we are, and that last 10 
percent is going to be an enormous cost, then it might not be 
the best way to invest. But, if we know that we're quite a 
distance and we have a lot of room to go and progress to be 
made, then, in fact, we ought to be investing. And I think it 
is very clear that we are not near the limit of predictability 
of hurricanes. But, that's an important question that vexes the 
earthquake community, as it does the atmospheric science 
community.
    So, Senator, it's a very important question, and we 
thoroughly address that in our report, to look at putting on 
track a very sustained, focused effort on hurricanes. Not just 
as a weather problem, though, but bringing in the social 
behavioral sciences, the economic sciences, engineering, wind 
engineering, ecological sciences, in a completely integrated 
way, where all these folks talk to one another, they interact, 
their models communicate with one another. And we're looking 
at, then, predicting a hurricane as a complete, total problem 
for society, not just as a weather problem.
    Senator Nelson. All of your written statements will be 
entered into the record, so that we have that basis of 
information.
    Mr. Nutter?

    STATEMENT OF FRANKLIN W. NUTTER, PRESIDENT, REINSURANCE 
                     ASSOCIATION OF AMERICA

    Mr. Nutter. Senator Nelson, I wanted to add to what Dr. 
Droegemeier said. Munich Reinsurance studies hazard events 
worldwide, and if--I could provide to the Committee, for the 
record, their charts showing exactly what has been mentioned 
here, and that is a relatively steady number of geophysical 
events--earthquakes, that nature--and a pretty dramatic rise, 
which I realize you can't see from that distance, in the number 
of climatological events.
    It seems to me that what should be driving this agenda is 
that our population, and the values at risk, have increased an 
extraordinary amount in hurricane-prone areas, and that if we 
were not, in the past, providing enough research money to 
support hurricane research, we have every reason to do so now, 
as our population has shifted into areas at greater and greater 
risk. And in my prepared statement there's data to support what 
the insured values have risen to be, and the number of people. 
It's a pretty dramatic rise.
    Senator Nelson. And your chart will be entered into the 
record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Sources: MR NatCatSERVICE.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Sources: MR NatCatSERVICE.
    Senator Nelson. Senator Vitter?
    Senator Vitter. I'm going to pass for now, Mr. Chairman.
    Senator Nelson. All right.
    Senator Martinez?
    Senator Martinez. Well, I wanted to, maybe what I should do 
is give each of you who have not spoken at this point to just 
maybe give us a quick opening, and then I'll follow up with 
some questions. I want to make sure all of you get a chance to 
get in some of your thoughts and ideas on what we're discussing 
today. And then let me come back to you with questions.
    Senator Nelson. And you might discuss whether or not you 
think we're making progress on reducing hurricane impacts.
    Dr. Spinrad?

        STATEMENT OF DR. RICHARD W. SPINRAD, ASSISTANT 
  ADMINISTRATOR, OFFICE OF OCEANIC AND ATMOSPHERIC RESEARCH, 
               NATIONAL OCEANIC AND ATMOSPHERIC 
          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Dr. Spinrad. Thank you, Mr. Chairman.
    Actually, I'd like to follow up on a particular aspect of 
what Dr. Droegemeier alluded to, in that the hurricane forecast 
and prediction capability is a comprehensive set of solutions.
    Within NOAA, which of course includes our National Weather 
Service, we have responsibility for developing improved 
capability on the front end, especially on the prediction and 
forecast, and providing warnings and information that emergency 
managers, local managers, can use.
    Now, we do that through a rather extraordinary combination 
of capabilities, and I found it fascinating--the image that you 
showed, sir, of Hurricane Charley, represents the culmination 
of capabilities, in terms of satellite support, in terms of 
enhanced models and observations, in terms of our ability to 
work with coastal managers through the National Ocean Service, 
and, of course, on the very front end, the research that goes 
into that capability to provide an improved forecast. We've 
made dramatic improvements, over the last several decades, in 
the track forecast: Where will that hurricane make landfall? 
Not as dramatic in the intensity forecasts. And the consequence 
of this is that emergency managers will, through a 
precautionary approach, take the forecast, with respect to 
intensity, and make assumptions about increased intensity, 
because all too often, as well, many of these hurricanes 
rapidly intensify as they make landfall.
    I had the personal experience of flying through Hurricane 
Ike last year as it passed from Cuba to the shore and 
intensified, over a very short period of time, to a Category-2 
hurricane. Why does it do that? How does it do that? When does 
it do that?
    We have recognized that, in order to do our part in the 
comprehensive forecast-and-response capabilities that Dr. 
Droegemeier alluded to, we need to enhance our investments, our 
research investments, specifically to improve the intensity 
forecasts, and, most notably, for those rapidly intensifying 
storms.
    As a result, with an emergency appropriation--supplemental 
appropriation last year, we were able to dramatically increase 
the investment on the research and predictive capabilities. 
This year, in our FY-10 budget, in fact, we have increased our 
request so that we can develop high-resolution models, work 
with our partners--which is a fundamental aspect of the 
research initiative that you have put forward, so we work 
closely with the National Science Foundation, we work closely 
with the U.S. Navy, we work closely with NASA, we work closely 
with the Minerals Management Service, and with the Department 
of Homeland Security, to develop new techniques to enhance that 
forecast.
    For example, this year, in about a month, we will deploy 
high-altitude balloons--lots of them--in the spawning area for 
hurricanes, to see if that information that we get before the 
hurricanes develop--even as they are simply tropical 
depressions--Can that help us to provide improved forecasts, 
especially for the intensity forecast?
    That, coupled with increased investments, especially in 
association with the National Science Foundation, on some of 
the social sciences--How does one interpret the forecast? We 
may have the best forecast ever. And, in fact, I would use 
Hurricane Katrina as an excellent example. It was one of the 
best forecasts that's been provided. But, we all know the 
devastation. Why is it that people respond the way they do? How 
can we help people manage in uncertainty, and improve our 
products and services?
    So, it's both the physical sciences of improving the 
forecasts, or improved observations and models, and the social 
scientists--sciences associated with interpretation, that is 
the NOAA responsibility embedded within that comprehensive 
enterprise that Dr. Droegemeier alluded to.
    Senator Martinez. But, one thing I would say in that regard 
is that it seems like, when the forecast gets enhanced, because 
of the lack of predictability of intensity, you then end up 
with a forecast that doesn't meet the expectations of the 
population. So, we were ready for a big storm, and there was a 
big nothing. We get another warning, it was a big storm, and it 
was a big nothing.
    Well, then, as the old story about the third one that comes 
along, you don't get prepared for, because we always ride them 
out. We're always finding, it was going to be a 4, and it 
turned out to be a 2, or whatever. I think people develop a 
sense of, particularly in places like Florida, where we get 
them so often, of, ``Oh, well, this is no big deal.''
    With the enhancement part, I also remember flying with 
Senator Nelson, I think it was Wilma, over Naples, and the 
damage was surprisingly mild. As we came across the Everglades 
and on into Fort Lauderdale, the damage there was horrendous. 
That storm intensified after it made landfall, while it went 
over the Everglades. I think it was Wilma that did that, which 
is remarkable.
    Dr. Spinrad. If I may?
    Senator Nelson. Wilma actually hit an unurbanized part of 
the State. The counterclockwise winds hit the coast actually 
down there in the Ten Thousand Islands.
    Senator Martinez. Right.
    Senator Nelson.There is no civilization there, except 
mangroves. But, that's right, across that moist Everglades, it 
kept up its speed, and by the time it got to Miami and Fort 
Lauderdale, it did some real damage.
    Dr. Spinrad. But, one of the thing--Wilma was a record-
setter in the meteorological community with respect to that 
intensification, which is exactly why we have emphasized trying 
to focus on the rapidly intensifying storms.
    The other point that I'd make is, we need to work hard to 
make sure the public understands, for example, that our 2- and 
3-day forecasts are now as good as the 1-day forecast was, say, 
a decade ago. And, for the most part, what we have seen is that 
people have enhanced confidence in that 24-hour forecast. But, 
the other issue, of course, is, How does one interpret the 
uncertainty associated with that forecast? And as I think all 
of the members of the Committee understand, when we put the 
forecast out, we include a cone of uncertainty. What does that 
mean? It's not good enough for us simply to put that out. We 
need to develop the tools so people understand how to interpret 
that.
    Senator Nelson. Dr. Wells?

 STATEMENT OF DR. GORDON L. WELLS, PROGRAM MANAGER, CENTER FOR 
       SPACE RESEARCH, THE UNIVERSITY OF TEXAS AT AUSTIN

    Dr. Wells. I want to agree that it's very important to 
study the intensification and the problems that we've had with 
that. I would like to say that, in the Texas experience in the 
last several years, we've dealt with two hurricanes, both Rita 
and more recently with Ike, in which the track was not very 
well forecast until the last 24 to 36 hours before landfall.
    Now, let me give you a concrete example of the impact that 
that has. We can all agree that it's necessary to evacuate 
nursing homes, assisted living centers, citizens that are 
homebound, that have physical or sensory disabilities, that 
live in the areas that would be affected by storm surge and 
high wind. Well, we can do this in a couple of different 
scenarios. We can wait until the last 24 to 36 hours before 
tropical-storm-force winds reach the coast, in which, at that 
time, we have a reasonably good track prediction. However, if 
we do that, we're likely--if we have an over-evacuation, as we 
had during Hurricane Rita, we could have them trapped in 
traffic; we could even--with feeder bands coming inland, we 
could have flooding, which could also cause them to be trapped; 
or they would have a very long and tiring evacuation for this 
fragile community.
    Or, we can do as we do in Texas now. We can take that 
period between 72 and 48 hours before landfall and attempt to 
evacuate that community at that stage. Now, when we do that, in 
the cases of these storms with poor track predictions, we over-
evacuate, and we place in jeopardy these very fragile citizens 
that, if we had as good a forecast as we now have, 24 hours 
out--if we had that at 48 to 72 hours out, we would have a 
solution to this dilemma. Right now, there is no good solution.
    Senator Nelson. It's amazing how the tracking has 
progressed and how much better it is. Dr. Spinard, 
interestingly, you use the example of Charley. I flew, not into 
Charley, but above Charley, in your NOAA G4 when it was still 
south of Cuba in the Caribbean. By the time it got to the 
peninsula of Florida, it was headed straight for Tampa Bay. All 
of a sudden, despite all of our predictions it suddenly came in 
with a left hook. It turned sharply to the right, and it went 
right across Charlotte Harbor, hitting Punta Gorda straight on. 
People had evacuated from Tampa Bay to the Holiday Inn at Punta 
Gorda, and they were at ground zero. Then, it kept right up the 
spine of the State, right up the Peace River, through Polk 
County, Orlando, and came out somewhere just north of the 
Kennedy Space Center. I think, because of your G4, you figure 
that you've got a 15-percent better accuracy. Is that correct?
    Dr. Spinrad. The accuracy over that last decade is, I 
believe, even higher than 15 percent; attributable, in part, to 
the G4, but, I would also say, largely attributable to other 
observational techniques, and probably mostly because of the 
improvements in the models.
    Senator Nelson. What are you going to do if the G4 is down 
for maintenance or because of an accident?
    Dr. Spinrad. We have several contingencies. First and 
foremost, we're relying on our strong and codified relationship 
with the Air Force. They have agreed to provide the C-130 gap-
filler capability from Keesler----
    Senator Nelson. Well, it can't get as high----
    Dr. Spinrad. It can't get as high.
    Senator Nelson.--as the G4.
    Dr. Spinrad. Part of this, though, alludes to the work that 
we've done with the Department of Homeland Security, using the 
high-altitude balloons. The experiment we're doing this year, 
in fact, would suggest that we can get similar kinds of 
observations from those arrays of balloons. Also, we can 
increase the dropsonde observations--and I believe you saw that 
activity from the G4--we can increase the dropsonde density 
with the aircraft, C-130s, and with our P-3 Hurricane Hunters.
    So, we have a series of steps that we can accommodate. And 
I would point out, the additional observational capability that 
we are testing this year, I'm convinced, will provide some of 
those enhanced observations.
    Senator Nelson. So, you're not worried about the column of 
air from the max altitude of the C-130 and the P-3, which is 
somewhere in the range of 30 to 33,000 feet? You would miss 
that column of air at the top of the hurricane, which is from 
45,000 down to that 33,000.
    Dr. Spinrad. That's why we're trying techniques using the 
balloons. That's why some of our modeling capabilities should 
allow us to do some extrapolation from the top of the profile 
of the P-3 and C-130 flight profiles, as well. But, I cannot 
tell you what the consequences of not having that full set of 
observations will be, absent the observations we get from the 
balloons.
    Senator Nelson. Senator Martinez, please continue.
    Senator Martinez. Well, I'm very interested in the issue of 
mitigation. We've had a bill. I wonder, Ms. Chapman-Henderson, 
if that's not part of something that you might be able to share 
some information on with us?

 STATEMENT OF LESLIE CHAPMAN-HENDERSON, PRESIDENT/CEO, FEDERAL 
             ALLIANCE FOR SAFE HOMES, INC.--FLASH

    Ms. Chapman-Henderson. Certainly. I think--and the science 
here would cross the range, and ``integration'' is the key word 
here. The notion of having a system where we connect the dots 
between social, behavioral, forecasting, engineering, and all 
these different sciences, to get a system in place where we 
would protect the communities, is really music to our ears.
    Building codes help us on new construction--new homes, 
those homes we rebuilt after Katrina, after Charley. 
Mitigation, or retrofitting, we look at as more of something to 
help with the unfortunate problem that we've constructed most 
of our homes without the benefit of the modern building codes. 
So, we have to have both.
    The problem is, we don't. We have pockets of success with 
building codes in places like Florida, although I would point 
out that even Florida had a very big loophole in the Panhandle 
until 2007. We have pockets of success with mitigation 
programs. Again, Florida, South Carolina--soon Mississippi--
have put programs in place to harden existing precode on older 
homes. Their activities are things like enhancing roof 
attachment, better high-wind shingles, protecting windows, 
doors, and garages.
    Again, unfortunately, just as we've got these new, emerging 
programs, they're desperate for funding. Having to make their 
case very hard, now they find them selves again, unfortunately, 
competing with things like weatherization.
    So, as an organization in a 100-partner-strong movement of 
people who are looking at how to get that end result, stronger 
homes into communities, so--we need the forecasting, we need 
the tracking--but, in the end, maybe, if we could get to the 
point where the structures are sound, damage is minimized. 
Because we can safely shelter in place. Families outside the 
flood zones can do what people do in places like Bermuda: they 
can batten down the hatches, and they can stay put, and safely 
so. They don't have to evacuate, they don't have to go to 
shelters and be fed and cared for.
    So, when we look at things like the new mitigation programs 
and the hardening, we applaud that. We'd love to see a national 
model, because those programs work. The Florida return on 
investment has been calculated, 3-to-1. South Carolina has 
reported homes that are in the program are getting 23 percent, 
on average, savings on insurance, 29 percent, on average, 
savings on energy, because--if they do the windows. But, with 
the focus on weatherization, what we've got to stop doing is 
simply looking at one piece. We can't pit green building 
against energy-resistant construction against disaster; we need 
to be holistic.
    For example, with weatherization, you're talking about 
things and activities that look at attics, windows, doors, 
walls. Well, those are the very same things you look at for 
wind resistance. So, if we're going to inspect homes in 
coastal-vulnerable communities, and weatherize them, we're 
replacing the windows, let's also put in an impact-resistant 
window, so that the dollars spent for weatherization are not 
wasted when those homes which remain vulnerable are swept away.
    The building code system that we have is excellent in terms 
of creating model codes, but it's not fast enough. Applied 
science and research-informed building codes could help resolve 
some of the debates that occur unnecessarily. Simple things, 
like taking additional nails and putting them into a roof 
decking, often mean the difference between a home that is 
completely destroyed and one that is not. But so often that 
isn't done, and roofs are destroyed, and communities are 
destroyed, as a result.
    So, that is our focus. And it's incredibly encouraging to 
hear that you're putting forth a program that would integrate 
across all this. Because the key is information sharing. Our 
engineers across the academic community, in the States that 
typically get hit, like Texas and Florida and South Carolina, 
are doing phenomenal work. They are discovering things, like a 
simple handful of nails, other affordable ways to strengthen 
homes. But we've got to get these practices into a system so 
that it's always done.
    With research behind that information--and I think that's 
where earthquake research has succeeded, really, by comparison. 
When you talk about the investment in earthquake research, it's 
almost made a lot of the debate about the specific building 
practices moot, because people know, ``This is what we have to 
do.'' So, ditto on wind. If we can get past the debate over 
whether or not things work, because we've put adequate 
resources behind the findings, then the building codes will 
deliver that protection to the homeowners each and every time. 
The breakdown between the developer, the code adopter, you 
know, the trained building official, down to the citizen who 
doesn't even know to ask, is extraordinary, and I think that's 
why we lose communities.
    Senator Nelson. I'll never forget, in the aftermath of 
Hurricane Andrew, in 1992, in which all of the Habitat for 
Humanity homes survived, when so many of those other 
subdivisions were just blown away. People would come up to the 
head of Habitat, because he had a Habitat sticker on his 
briefcase, and say, ``Oh, thank you, thank you.'' And the press 
would come up and ask him, ``Well, why did the Habitat homes 
survive?'' And his answer was, ``Inexperience.'' They would 
say, ``Inexperience? What do you mean?'' He would say, ``Well, 
we do it with volunteers, and instead of driving two nails they 
would drive ten nails.''
    [Laughter.]
    Senator Nelson. And a home survives.
    Senator Martinez. Absolutely. It makes sense.
    I was going to ask you about another type of housing, which 
many Floridians rely on, which is mobile homes, manufactured 
homes. And I know that, while I was at HUD, we did some work in 
trying to improve the national code for the construction of 
prefabricated homes. And I think they've had very, very good 
results with them, but we still inevitably, there was a tornado 
in central Florida last week, and a number of homes were lost, 
and inevitably they're all mobile homes. Obviously, the older 
ones are not very survivable. But, I think we've made some 
progress. I wonder if you can comment on that.
    Ms. Chapman-Henderson. Certainly.
    Senator Martinez. Because this is a very, at a time when 
affordability is a big deal, this is a very affordable way for 
people to house.
    Ms. Chapman-Henderson. Well, and this is another place 
where research can help us solve our problems. I think the 
traditional old--what we call the pre-HUD homes, before the 
regulations were enhanced, are--you absolutely have to evacuate 
from those homes. The structure itself of the new manufactured 
home is so much better, but we would still ask those folks to 
evacuate, because they can't resolve the attachment issue.
    Senator Martinez. Right.
    Ms. Chapman-Henderson. Traditionally, we've always held out 
the manufactured or mobile home as the affordable option. There 
are other options, to mobile homes, and there are modular and 
other types of things that can be done that--we can overcome 
the problem of attaching that home to its foundation. 
Attachment is essential, and that's where we get into trouble 
in wind.
    This is another place that's rife with confusion. And the 
lack of information about what works and what doesn't--when it 
comes down to it, as a family we need to be confident that 
wherever we dwell is safe to stay. And our rule of thumb is, 
if--you know, if you don't know which building code or which 
regulation you're manufactured to, in that case, or the site-
built home is built to, how can you possibly make a decision, 
that could be life or death, on behalf of your family?
    With respect to the manufactured housing, I think, again, 
we're very decentralized, so we don't have good information. 
And until we resolve attaching those homes to the foundation, 
one good windstorm--and it doesn't really even have to be a 
tornado--brings--consistently brings death and injury, and 
that's unacceptable.
    Senator Martinez. And, really, property loss, too--huge 
amounts of property loss, because typically they're just blown 
up. Even if people evacuate. So the mitigation part, you know, 
not only is about life and limb, but it's also about property.
    Ms. Chapman-Henderson. That's right. And in my longer 
version of the commentary in the record, I have a 22-State 
analysis on the economic impacts of building codes and 
mitigation. It's clear--for example, I think I've pulled Texas 
out, but I have all of the 22 hurricane-prone States. In Texas, 
the average annual insured losses that are expected are around 
a billion dollars. And if you simply put in modern building 
codes, if you could magically do so, you reduce that by 40 
percent. If you put in Code Plus, which is just some of the 
things that are absent from the code today, you could reduce 
that down to $200 million per year. So, taking the average 
annual expected insured losses from a billion to 200 million, 
mitigates insurance costs--and it becomes very clear that you 
can, you know, reduce them over time. I think that analysis is 
very compelling and, I think, has gone a long way toward 
helping us get some traction around this discussion. I'd like 
to think so.
    Senator Nelson. Senator Vitter?
    Senator Vitter. Thank you, Mr. Chairman.
    I'd like to ask Dr. Spinrad, specifically, what research-
gathering tools and programs would you put at the absolute top 
of the list, in helping NOAA achieve the goals laid out in the 
Hurricane Forecast Improvement Project? I know they're all 
worthwhile and helpful, but what tools and programs would you 
put at the top of the list, in terms of having positive impact?
    Dr. Spinrad. Senator, I'd start to answer your question by 
saying, we think about the categories of research investment 
that will contribute to improved forecast. And in a very coarse 
definition, those would be observations and modeling, and what 
we call ``data assimilation,'' getting the observations into 
the models.
    So, for example, on the observational side, one of the 
things that we feel is very important is characterizing the 
nature of the heat content in the ocean as the storms are 
coming across the ocean. So, improving our ways of finding the 
total heat content, how much heat is in the full ocean, is one 
observational technique we need to improve.
    Also, low-level winds. We've got high-level winds, upper-
level winds, right around the storm, but for years we've not 
been able to make observations of those lowest-level winds, and 
there are indications that those may be particularly 
influential in how the hurricane is structured.
    So, what we've started doing in that regard is launching 
unmanned aircraft--small, unmanned aircraft in areas where we 
would not want to put P-3s and C-130s and G4s. And we've had 
some success in those observations.
    On the modeling side, I think, if you talk to most of the 
modelers, they would tell you our real challenge is increasing 
the resolution, bringing the size of the model grid down to 5 
kilometers, maybe even 1 kilometer. And, as you might imagine, 
that demands much, much more computational horsepower. So, 
we've spent a lot of our resources of late investing in high-
performance computing.
    And on the data-assimilation side, this is really where we 
work very closely with our academic researchers, who have 
improved the capability to absorb these observations, including 
radar observations, from the P-3 aircraft, in real time, into 
the models, so that with a lag of less than an hour or two, we 
can have the observations going through a supercomputer, such 
as the one we use in Texas, into the National Hurricane Center 
to improve what we call the ``forecast guidance,'' the model 
output that the forecaster, the critical human in the loop, can 
then take to develop that forecast.
    So, it's--models, observations, and data assimilation are 
the critical components in the research investment.
    Senator Vitter. OK. And let me ask you, on the other end of 
the process, in terms of the end result, the goals laid out in 
the HFIP for improvement, what do you see as being the most 
imminently achievable: reducing tracking error, extending 
forecast lead time, or increasing forecast accuracy? What area 
do you expect to see the most improvement, and the soonest?
    Dr. Spinrad. We've already seen dramatic improvement in 
continuing to improve the forecast on the track accuracy. Just 
last year, by using the supercomputer in Texas, we were able to 
bring the track down, on one or two storms that we were 
studying, significantly.
    I would say that extending the forecast, of and by itself, 
is directly doable right now. The real parenthetical aspect of 
that is extending the forecast with some accuracy. So, we will 
make immediate improvements on track, we already saw that last 
year. We have started to make improvements on intensity. We 
have put the goal, in the Hurricane Forecast Improvement 
Project, rather high. It is a high bar to reach, to improve the 
track and intensity forecast by 50 percent over the 10-year 
period of what we call HFIP, the Hurricane Forecast Improvement 
Project. But, I'm convinced we'll reach all of those goals 
within that 10-year period. Probably, on the track we'll reach 
it sooner.
    Senator Vitter. OK.
    And then, for Dr. Wells, the simulations you've run, what 
do they suggest about the relative effectiveness, in terms of 
protective coastal infrastructure of softer options like 
wetlands restoration, versus harder options like structures, 
and how those interact and build on each other?
    Dr. Wells. Well, we happen to be using the same 
supercomputer that NOAA is using for its experimental forecast 
in the hurricane model. We're using it in a hydrodynamic model 
called the advanced circulation model, ADCIRC. And that allows 
us to increase the model spatial resolution of the grid down to 
anywhere from 50 to 20 meters, if necessary, so that you can 
represent the built infrastructure on the surface.
    What we have done recently--the team that's led by 
professor Clint Dawson and his assistant, Jennifer Proft, at 
the University of Texas--they've taken Hurricane Ike, all the 
observational data from that, especially from the wind fields, 
and they have run simulations of the landfall as the storm 
occurred, historically. And they have taken a concept called 
the Ike Dike, which is Dr. Bill Merrill's concept, at Texas A&M 
Galveston, which is a sea barrier that would be built along 
about a 60-mile segment of the Texas coastline, all of 
Galveston Island, all the way over to High Island and the 
Bolivar Peninsula, and they've run both of the simulations with 
and without the dike.
    They've also taken Ike and created a Mighty Ike, a 
Category-4 Ike, and run the same simulation, so that you can 
see, on the hard-option side, of using things like dikes and 
storm gates, what the consequences might be.
    There are also the soft options, wetlands restoration and 
some restrictions on potential land use and development on the 
coastline.
    These are usually seen as, sort of, categorically the 
opposite; you have to pick one or the other. But, what we can 
do with the supercomputer modeling is see what best combination 
would work for different areas of the coastline. There may be 
combinations that would work for one particular landfall 
scenario that would fail or create potentially even greater 
problems for another landfall scenario.
    The wonderful thing about the supercomputer modeling is 
that we can simulate hundreds of storms--use historical storms, 
use storms that are just purely our design--and we can test 
these different protective measures that could be taken, both 
built infrastructure as well as natural restoration processes, 
see which works best.
    Senator Vitter. OK. And also for Dr. Wells, you mentioned, 
in terms of forecasting storm surge to help with rescue 
operations, that, in addition to natural geographic data, a 
full database should contain what you term ``social geographic 
data'' to help with that, in particular. From your experiences 
with Ike, in particular, give us some examples of that. What 
would be particularly useful, how it would be useful on the 
social-geographic data side?
    Dr. Wells. Yes, Senator. I should first say that I and my 
team work in the State Operations Center. We work with State 
elected leadership: with the Governor, with the chief of 
emergency management of the State, Jack Colley. We're 
constantly interpreting the model forecast, and we're taking 
runs from the supercomputer at the Texas Advanced Computer 
Center, and looking at the impact geography.
    Now, what we see in the physical side, those high-magnitude 
impacts are not necessarily the areas where you want the first 
responders to go. I'll take--I'll give you a concrete example. 
If we had ground zero being in East Beach, Galveston Island, we 
have an area there that is developed with half-million-dollar 
beach houses, which are second homes; very high-rent 
condominiums; areas that are not primary dwellings; areas 
where, certainly, the residents would have a means to self-
evacuate. That might well be the area that you would anticipate 
to have the highest-magnitude impact.
    Six miles away, in the interior of the City of Galveston, 
you have a number of social factors. You have elderly, in 
neighborhoods, who are living in older housing stock. You have 
single-parent, low-income wage-earners who may not be able to 
leave the island because of their job requirements. You have 
people that are--again, they have a medical special need. You 
have a number of factors that are social factors. And you need 
to be able to overlay the impact from--the physical impact, 
that particular geography, with the distribution of these 
populations within the community that have special risks.
    We need to be able to evaluate and compile that as a 
distribution of the population, because where those two 
overlap, the social and the physical risk, that's the threat 
geography, that's where we need to be able to do search-and-
clear operations before impact, and it's where you want to be 
able to get into, at the very earliest moment, when you can 
safely reenter the region with your first responders, to check 
those neighborhoods, to see that those people are safe.
    Senator Vitter. OK. That's all I have right now, Mr. 
Chairman.
    Senator Nelson. Mr. Nutter, we haven't forgotten you. I 
want you to comment on how better construction methods and the 
stronger building codes, that Ms. Chapman-Henderson mentioned, 
can save lives and property, and reduce economic losses. Since 
you're in the reinsurance business, if you could address 
improved forecasting and modeling also helps bring down the 
economic loss?
    Mr. Nutter. I think the--there's no question, as has been 
mentioned by several people, that improved forecasting, where 
people can be out of harm's way, is going to save lives. That 
will not necessarily save property damage, unless we do 
something to mitigate these properties.
    Let me cite a statistic. Losses from Hurricane Andrew in 
1992, as you mentioned, caused about $20 billion, in today's 
dollars, of insured losses. That would have been reduced by 50 
percent for residential property, and 40 percent for commercial 
property, if the destroyed and damaged structures had been 
built in compliance with Florida's 2004 building code--to Ms. 
Chapman-Henderson's point, that we know how to do this, there 
are ways to do this, and it has real value to it.
    We cite, in other statistics, that homes built to the 
modern Florida building code experienced a 60-percent reduction 
in the frequency--actual losses--of property losses, and a 42-
percent reduction in loss severity, meaning dollar amount of 
insurance claims, during Hurricane Charley in 2004.
    So, I don't think there's any question that improved 
research is important, but improved research needs to be tied 
with the societal impacts of hurricanes; not just the physical 
characteristics of the hurricanes, but that interaction, both 
with the built environment, as we're saying, but also the 
natural environment and buffers.
    Dr. Wells' point about the ability to evaluate natural 
habitat as buffers, as well as built buffers, is an interesting 
way to look at this, and research focused on that would be of 
immense value to the people who live in these high-risk areas.
    Senator Nelson. I recall a huge part of economic loss that 
we've gotten better at preventing is by having FEMA ready so 
that it can get plastics in there so people can cover up holes 
in their roofs. After the hurricane has come through and people 
have holes in their roofs. You can save an enormous amount of 
economic damage, because if there's a hole in your roof, the 
rains come after the hurricane that causes all the insurance 
loss inside the home.
    You want to comment about that, Mr. Nutter? And then I want 
Ms. Chapman-Henderson to.
    Mr. Nutter. Well, just that that's a clear value to 
immediate response, and preparation for that immediate 
response. The government has not always been fairly prepared, 
or maybe even fairly criticized, for its response; but the 
reality is that those who might come in to help mitigate those 
damages need access to those areas, which include debris 
removal and communications capability. So, anything that would 
focus on first responders, or to prioritize first-responding 
areas, would be of great value in reducing these insured 
losses.
    Senator Nelson. All right. Dr. Spinrad, I'm going to test 
your forecasting ability, here.
    [Laughter.]
    Senator Nelson. We've had La Nina, the cold Pacific waters. 
Your bulletin, dated just a week or so ago, says, that El Nino 
is arriving. El Nino is the warming of the Pacific waters, 
which tends to lessen the activity in the Atlantic hurricane. 
Now, thus far, we haven't had any activity in the Atlantic on 
hurricanes. So, tell us what's going to happen in the Atlantic.
    [Laughter.]
    Dr. Spinrad. The--first, I would point out that my 
meteorologist friends, who are in the Weather Service, are fond 
of pointing out, they're in charge of marketing, not 
production.
    [Laughter.]
    Dr. Spinrad. With that in mind, I'll also add, I'm an 
oceanographer. That's my qualifying statement.
    [Laughter.]
    Dr. Spinrad. The outlook that we provide every year at the 
start of hurricane season, from which the information that 
you've got comes, this year did take into account what we 
thought was the emergence of an El Nino. And, of course, that 
was developed several months ago. Now we have better 
information about the emergence of El Nino. So, the first point 
is that that outlook did include that.
    The second is that our mid-season outlook will come out on 
August 6, which will presumably take into account the enhanced 
observations and more accurate characterization of El Nino.
    You are absolutely right that the statistical indications 
from El Nino are that it, in fact, actually increases the 
upper-level winds and, as a result, if you will, knocks off--
shears off--the developing storms, and therefore diminishes 
number and intensity of them. So, based on that physics, one 
would assume you would see a reduced probability. As you know, 
this year's outlook effectively said, ``a 50-percent 
probability of 9 to 14 named storms.'' On August 6, we will 
identify how that has changed.
    I would simply point out that the paucity of named storms 
this year does not, of and by itself, give any indication of 
what the season will look like. I remind you, of course, 
Hurricane Andrew--``A,'' therefore the first named storm--
occurred in late August. The latest ``A'' named storm--that is 
to say first hurricane--occurred in--on August 30. That was 
Hurricane Arlene. And historically, especially in Florida, you 
will see that August and September are the most intense months 
for hurricanes.
    So, I think we can't simply say that, since we have seen an 
emerging stronger El Nino this year, we therefore can conclude 
that we are safe. And I'd also point out that obviously, from 
our standpoint, one severe storm is catastrophic, and we are 
more concerned with nailing the forecast with respect to those 
individual storms than what the statistical average outlook 
might be.
    But, I think, in sum, since you have tested my forecast 
capability, we will see, on August 6th, an outlook that 
accommodates the consequences of what is now clearly an El Nino 
signal.
    Senator Nelson. All right. That being the case, would it be 
reasonable to expect that the late hurricane season, of which 
you pointed out Andrew was in late August, that, because of El 
Nino appearing, that it lessens the likelihood of ferocious 
storms in the Atlantic, since it shears off the top of them.
    Dr. Spinrad. Statistically, yes, sir.
    Senator Nelson. OK.
    Dr. Spinrad. Statistically. But, as I point out--and, in 
fact, I would have to look back at the record--there have been 
a number of very strong storms during El Nino years, as well.
    Senator Nelson. Was El Nino present in any of those years 
that you mentioned? For Andrew or Arlene? It was.
    Dr. Spinrad. I believe there was a weak El Nino in 1992, 
during the Andrew----
    Senator Nelson. I see.
    Dr. Spinrad.--evolution. Yes.
    Senator Nelson. So, that just disproves the whole theory.
    Dr. Spinrad. Well----
    [Laughter.]
    Dr. Spinrad.--to the extent that statistics are 
disprovable, yes, that's true.
    Senator Nelson. OK.
    [Laughter.]
    Dr. Spinrad. But, statistically, of course, it still holds.
    Senator Nelson. In other words, we take no comfort in the 
fact that El Nino is there.
    Dr. Spinrad. That's right. For the climatologists, there 
may be some comfort in fitting curves, in the future; but, 
clearly, I would not want to go to the citizens of Florida, 
Louisiana, Texas, and say, ``Since it's an El Nino year, the 
statistics are such that you might have a slightly reduced 
probability of severe storms.'' That's not consolation, in my 
opinion.
    Senator Nelson. Is NOAA working with HUD and other agencies 
to tie the science and the coastal management and the community 
preparations together?
    Dr. Spinrad. NOAA is working with a variety of different 
agencies. I would also point out, of course, since we are in 
the Department of Commerce, we work closely with the National 
Institute of Standards----
    Senator Nelson. Hey, Senator Martinez? Before you left, and 
I really appreciate you being here.
    Senator Martinez. I've got to----
    Senator Nelson. I know you do since you and I introduced 
this package of bills.
    Do you all generally support this six-pack that we've put 
together?
    Senator Martinez. Let me put on my glasses.
    [Laughter.]
    Senator Nelson. Basically, the legislation is a lot about 
what we've been talking about here.
    Is there anybody that doesn't?
    Mr. Nutter. Senators, as you know, the reinsurance sector 
has always had an ongoing dialogue with you, and Senator 
Martinez, in the State of Florida, about the value of the 
private sector's role in financing catastrophe risk, and the 
role that government can or should play with it. With that 
caveat, we are strongly supportive of the bill that you and 
Senator Martinez have introduced about increased funding for 
research. In fact, we think the funding is more modest than it 
should be. It should be increased.
    Senator Nelson. So, it's fair to say that the reinsurance 
industry would not support the bills that we've introduced with 
regard to the Federal Government giving a loan guarantee to the 
States for their hurricane catastrophe funds.
    Mr. Nutter. Senator, the loan guarantees, without some 
conditions with regard to the underlying insurance markets, for 
example, insurance being risk-based, would be important 
conditions. To make certain that the insurance markets are 
responsibly being priced, and that people are paying based upon 
the risk that they have.
    Senator Nelson. You know, what I don't understand is, when 
the big one hits, the big one is a Category 4 or 5 hitting a 
dense part of the urbanized coastline, there's going to be more 
business than you can shake a stick at, and you're going to 
have to have the States strengthened in their reinsurance 
funds, their catastrophe funds, in order to accommodate that 
kind of economic loss. Rather than your industry looking at 
that as competition from the Federal Government, it seems that 
we ought to be able to marry up the two, going in the same 
direction.
    Mr. Nutter. Well, Senator----
    Senator Nelson. Any comment?
    Mr. Nutter. Well, yes, I'd be happy to comment. The private 
reinsurance sector, which is all I would speak for, not the 
insurance sector, wants to write catastrophe risk in Florida 
and other States. It's a business that, in fact, is driven by 
the demand by insurance companies for reinsurance, and we want 
to provide that market.
    To the extent that the State of Florida has a catastrophe 
fund that precludes or preempts companies from buying private 
reinsurance, it's an unfair advantage, we would say, for the 
government programs to do that. So, we would love to find a 
compromise that works, but I would say that the private sector 
cannot easily compete with the public sector in providing 
reinsurance, as it's being done in the State of Florida.
    Senator Nelson. Thank you, Senator Martinez, for being 
here. I'd just say that, interestingly, the insurance industry 
is split on this issue, on what we're talking about here. The 
reinsurance industry doesn't support the Federal guarantees for 
a State catastrophe fund, whereas generally the insurance 
companies do. I just wanted the record to show that.
    Thank you.
    All right, Senator Vitter, may I continue on with regard to 
once we know that a storm is going to hit a lot of you have 
talked about the preparations that people need to make to move 
to safety. Dr. Wells, for example, you all had such a 
horrendous tie-up on your interstate in trying to evacuate. 
That's happened in Florida, as well. And then everybody gets 
smart and figures out a way, with the Highway Patrol, to make 
the interstate one way, so people can get out. What's your 
experience with other States doing what Texas and Florida have 
done?
    Dr. Wells. I'll risk arguing with you just a little bit, 
here. I'm--my background is in hydrodynamics, and I can say 
that, for Hurricane Rita--you only have so much roadbed 
available on which to put vehicles. If you have an over-
evacuation that occurred, as did occur during Hurricane Rita, 
where you have--2.7 million people, over a very short time 
span, decide that they're going to get on the roads out of 
Houston, there's basically no solution to that. You can start 
with 20 lanes of traffic heading outbound, and 20 miles down 
the road, there'll be 6 lanes. Where do you want to choke flow? 
Do you want to choke flow back toward the city, where you have 
some resources to take care of people in that situation, or do 
you just let them go out into the countryside and sit out there 
for several hours? Again, without the built infrastructure to 
take care of that, in terms of transportation--contraflow, I 
don't think, really gets you out of those particular instances.
    What you need, of course, is a phased evacuation, where the 
people in the greatest jeopardy have the opportunity to get out 
first, where Galveston County, and Galveston Island, have that 
opportunity to get ahead of the traffic stream. And then, you 
do not want to evacuate certain areas of Harris County, which 
are more than 50 miles from the ocean, and which are not going 
to be subjected to devastating high winds or flooding of the 
kind that would put life in jeopardy.
    Senator Nelson. Ms. Chapman-Henderson, do you want to add 
to that?
    Ms. Chapman-Henderson. I do. And first, going back to your 
question from before, I am only familiar with the building-code 
mitigation and research aspects to the legislation, so I can 
heartily endorse those aspects. And our partnership of more 
than 100 is probably evenly divided on other insurance issues, 
as well.
    With respect to evacuation, I think the way we like to look 
at it is in a--in an ideal sense. Differentiating between those 
that reside in a flood zone, or not, is step one. We always 
urge citizens and--you know, throughout--I think that it's 
uniform that if you live in a flood zone, you have to leave, 
because there are too many variables, and the threat of life 
safety being a reality there.
    But, beyond that, the homeowner or the business owner or 
anyone who's seeking to take shelter from a storm that's 
coming, if they have knowledge of what their house can do, a 
performance forecast, for example, then they can confidently 
make decisions about evacuation and take themselves out of the 
over-evacuation problems of a Floyd. In Florida, during Floyd 
people on the east coast of Florida ended up heading west and 
causing all types of problems. People spent the night in 
parking lots, and were more vulnerable, because we really don't 
know, ultimately, exactly where the storm will make landfall.
    So, when we work with consumers, which is our primary 
interaction, and we have, I think, as you know, an experience 
right now, down at Epcot, at Disney World, where we bring 
guests through. More than a half million, at this point, have 
come through and experienced a virtual storm, and engaged in 
game-playing to do decisionmaking around--good decisions for 
structures, and different aspects of this whole question of 
hurricane safety. And when we do that, what we find is, people 
do not know. They don't know that there are differences in 
building codes with respect to how things are built. Their 
expectation is that it would be built properly in the first 
place.
    A very common question we receive is, ``You mean there are 
different roof shapes?'' Hip being more aerodynamic, gable end 
not as much, but they can be braced--people come to us every 
day and say, ``What--why do we build a house that isn't 
aerodynamic shaped on the roof, if we're in the wind zone? Why 
would we do that in the first place?'' So, I think the public's 
expectation is that we would do it right. But, they don't 
understand that the building code, in its best form, is 
designed to be a minimum legal standard. They don't know that 
there are different historical strengths to codes, and that the 
modern codes are better. So, they don't really possess the 
information to make sound evacuation decisions, and, as a 
result, they just leave.
    And, I think, if we could get to a place where people 
understand what they have and what it can do, how they can be 
safe, then they can stay put, shelter in place, stay off the 
roads, and leave them available to the responders and the 
others that need to be there and need to be mobile, post-storm, 
they can remove themselves from the definition of 
``catastrophe.'' And we receive thousands of calls when, 
almost, it's really too late. People call--I remember, during 
Isabel, people from Maryland calling us and saying, ``Am I in 
the flood zone?''
    So, we have a great amount of work to do with respect to 
bridging those information gaps and equipping people with 
information about, first and foremost, ``Am I in or out of the 
flood zone?'' and, second of all, ``Is this house going to 
survive?'' And I think that is a very strong link to evacuation 
and how we could improve performance in evacuation.
    Senator Nelson. With the amount that they're having to pay 
for homeowners insurance now if you're in a coastal area, you 
would think that people would be asking about those things when 
they buy a house.
    Ms. Chapman-Henderson. Absolutely, Senator. One of the 
things that is very promising that's being done, as I mentioned 
before, in Florida and South Carolina, and soon Mississippi, is 
programs to harden the homes. And there is a very definite link 
between the hardening or retrofitting activities that address 
the strength of roofs, windows, and doors, and insurance 
incentives and discounts.
    For those areas, like southeastern Florida, that have the 
highest insurance rates, although they do compete with Texas 
for high homeowners rates--they are looking, often, at up to 
50-percent insurance discount or credit on the insurance or 
wind--the wind portion of the insurance premium. So, there are 
those that report--the average savings in Florida from the 
hardening program is $773 per year, but in southeast Florida, 
it's closer to $2,000 per year. And that is a tremendous 
incentive, as you can imagine, for people who have older homes, 
to purchase shutters that are tested and approved, and to 
invest in high-wind shingles and impact-resistant garage doors. 
And I think that's why that program has been successful, 
because of the financial incentive, the safety value, and the 
information that people can shelter in place.
    There are letters from people who reside in Miami. One, in 
particular, came from the program, an elderly citizen, who 
described her experience of being psychologically traumatized 
for all of hurricane season each and every year, following 
Andrew, but because she was able to receive a matching grant 
from the program, she could rest easy, this season, because 
she'd taken all the steps necessary to harden her home.
    Senator Nelson. Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman.
    I'm very pleased to be here, because I think what you and 
Senator Martinez are doing is very important for States like 
yours and States like mine that are hurricane-prone.
    I also have, maybe, a more far-reaching and not yet proven 
suggestion in a bill that came out of the Commerce Committee, a 
month or so ago, to look at, not only to find ways that we are 
able to better predict the impact and the course of the 
hurricanes, which you all are doing, but also ways we might 
consider, through research, mitigating the effects of those 
hurricanes with some kind of intervention.
    So, I hope that my bill passes. I hope that your bill 
passes. And I want to put my statement in the record.
    Senator Nelson. Without objection.
    [The prepared statement of Senator Hutchison follows:]

           Prepared Statement of Hon. Kay Bailey Hutchinson, 
                        U.S. Senator from Texas

    Thank you, Mr. Chairman, for holding this hearing on the need for a 
National Hurricane Research Initiative. As the United States--and 
especially Texas and other southeastern states--brace for the potential 
fury of the current 2009 hurricane season, this subject is both timely 
and relevant for Committee consideration.
    Hurricanes account for billions of dollars of economic loss--an 
average of more than $35 billion annually in the last 5 years alone, 
reflecting the enormous economic tolls of individual storms like 
Hurricanes Katrina, Ike, Wilma, Charley, and Rita. Hurricane Ike alone 
caused $24 billion in damage and resulted in the loss of 112 lives. 
There are many portions of my home state of Texas that are still 
recovering from this devastating storm.
    Storms like Ike and Katrina exposed how vulnerable the U.S. remains 
to natural disasters. As our coastal populations and urban centers 
continue to grow, our Nation must find new and improved ways to 
minimize hurricane damage and fortify our prediction and response 
capabilities.
    Therefore, in December 2005, the National Science Board convened a 
task force to examine the state of hurricane science and research in 
the U.S. Not surprisingly, it found that our Nation must do more to 
improve forecasting, model intensity and impacts, enhance protection of 
the manmade environment, and refine response and evacuation strategies. 
Achieving these goals will require additional investment in advanced 
super-computing capabilities.
    The Committee is fortunate to have Dr. Kelvin K. Droegemeier [DRO-
ga-meier] testifying on behalf of the Task Force on Hurricane Science 
and Engineering, which produced the 2007 report recommending the 
formation of a National Hurricane Research Initiative. This initiative 
comes with a price tag of $313 million, and it will be critical for the 
Committee to understand all aspects of such an approach as we consider 
legislation for authorizing this Initiative.
    Of course, I must also note the critical testimony we will hear 
from Dr. Gordon Wells of the Center for Space Research at the 
University of Texas. Dr. Wells will testify about his experience using 
the ``Ranger''--the most powerful computer in the National Science 
Foundation's network of academic high performance computers--to 
synthesize satellite imagery, GPS tracking signals, and hurricane and 
storm surge models to orchestrate evacuations during Hurricane Ike. Dr. 
Wells' use of ``Ranger'' helped saved thousands of lives and we need to 
ensure that our scientists and emergency planners and responders have 
the best tools possible to help protect both life and property.
    I look forward to hearing from these witnesses as well as Dr. 
Spinrad from NOAA, Ms. Chapman-Henderson of the Federal Alliance for 
Safe Homes, and Mr. Nutter from the Reinsurance Association of America. 
This expert panel will allow us to examine both the need for a new 
hurricane research initiative as well as the economic and other 
benefits to our Nation from such an undertaking.
    Thank you again, Mr. Chairman, for holding this important hearing.

    Senator Hutchison. I've tried to ask my staff, here, what 
has already been covered, so I'm going to try not to duplicate 
but, I do want to ask Dr. Wells, because I had the personal 
information, while we were all just watching Ike by the minute; 
I was amazed at the accuracy of where it would hit, when it 
would hit, and its projected intensity, that your Ranger 
computer was able to model, and share with all of the Federal 
agencies, the Weather Service, the local and State emergency 
services. It was the best I have ever seen. I want to ask you, 
What did you learn from what you were able to get? Is there 
something more that can be done that we should explore? Or is 
there something new that you think should be added for this 
year's hurricane season? Because the ability to track the way 
you did, and what was amazing is to look at it, after the fact, 
that everything you predicted was exactly where and when you 
had predicted it would happen.
    So now, my question is, we're going into hurricane season, 
what more should we be doing, what can we be doing, and what is 
this new Ranger capability going to do for the rest of our 
States that are so vulnerable?
    Dr. Wells. Well, I think--and Dr. Spinrad has also talked 
about their success at NOAA in running a forecast model on 
Ranger. We were running the hydrodynamic storm surge forecast, 
they were running the actual track-and-intensity forecast with 
a different model. We were sharing the computing resources 
there. There are 60,000 processors to share.
    The New York Times had a nice graphic that showed Ranger in 
relationship to all the other supercomputers, a couple of 
months ago, and it was the 6th largest. And all of the other 
supercomputers shown in the graphic were at national 
laboratories or are similar Federal large facilities.
    This is a university resource that's shareable, through the 
NSF, with many other investigators researching a very wide 
variety of problems. It's a highly adaptive computing resource 
that we can use for our hydraulic and hydrodynamic models, as 
well as the hurricane forecasters can use.
    Senator Hutchison. And I know you were sharing with NOAA. 
Is there anything more that would be able to, between NOAA and 
the technology that you have, that would get any better or more 
helpful information to the people on the ground who are trying 
to prepare?
    Dr. Wells. Exactly. I was about to say, probably the area 
that we haven't explored to the degree that we need to are some 
of the ways that we can visualize the information from the 
models, the outcome of the model, and put it into a context 
where individuals--where the public--can really assess their 
personal risk. I think there are lots of model outputs that we 
see. There are maps, there are various other ways of displaying 
these results, but they just don't always capture the 
imagination of the public, in general. And they cannot see 
themselves, in their homes, as being vulnerable to this 
particular event that we're attempting to give them the model 
results.
    We understand that, and we can actually place first 
responders in the field, and I can provide information to Mayor 
Thomas in Galveston, saying, ``Here's what your community is 
going to look like tomorrow.'' But, I'm afraid that we are not 
doing as effective a job of changing the attitudes and the 
personal comprehension of risk that citizens have.
    And I think that modeling visualization--and this can be 
cinematic, three-dimensional, really dramatic ways of 
presenting that kind of information, both on storm surge and 
wind damage, and inland flooding, where people see their 
neighborhoods, and even their residences, as affected by the 
event. That's the future of this. We can get to that level of 
demonstrating what the impact is going to be.
    You always hear these people, after the event, saying, 
``Oh, I knew that this was going to be a very bad hurricane. 
It's going to be as bad as Camille or as bad as Carla, and I 
lived through that, and I realized--but I just didn't think 
that, in my part of town, or in my neighborhood or at my house, 
it was going to be as bad as it was.''
    Senator Hutchison. Well, one of the things about Hurricane 
Ike was the flooding, not just heavy flooding, it's not a 
tsunami, but it is that forceful flooding. I flew over the area 
on the other side of Galveston, to Bolivar Peninsula, not 
``Island,'' but Bolivar Peninsula. I've been there many times. 
I was flying over it and I was thinking, ``Gosh, this must be a 
new construction area, because there's nothing here.''
    Dr. Wells. Yes.
    Senator Hutchison. It wasn't a new construction area.
    Dr. Wells. But, material was 10 miles away, in Chambers 
County.
    Senator Hutchison. It was. And that's why all you saw were 
sticks in the ground. There were no turned-over refrigerators, 
there was no debris, there was nothing. So, I thought, ``Well, 
it's new construction.'' And I realized, ``No, I'm in the heart 
of Bolivar Peninsula, where all the houses are.'' Yet there was 
no debris. It had gone 10 miles up. And that's what people 
aren't prepared for.
    I grew up in Galveston County. I lived through Hurricanes 
Carla and Camille. I've never seen anything like it in my life. 
That's what you're talking about. People can't visualize that 
they're going to come back and see sticks in the ground, and 
not a broken air conditioner, not a broken sink, not a thing.
    Dr. Wells. Right.
    Senator Hutchison. It was unbelievable.
    So, is that what you mean when you're saying people aren't 
prepared for what is actually going to happen in their 
immediate neighborhoods?
    Dr. Wells. They just have the general concept that this is 
going to be a bad event, but they cannot personalize it and see 
it in terms of their own geography, where they live. And I 
think that we have, now, and we certainly will have better in 
the future, a means of doing the modeling that predicts that 
impact, and the means of delivering that information more 
effectively.
    We probably need to study how people respond to different 
kinds of information that's given to them. I don't think that 
there is enough research to show how people conceptualize their 
personal risk in this kind of event. It's probably the same for 
earthquakes and other natural disasters. I think we really need 
to take a careful look at that, because we could have the 
greatest science, and have the best knowledge of the physical 
dimensions of the impending event, but if we can't communicate 
it, it's not going to make a difference.
    Senator Hutchison. Let me just ask one other line of 
questioning, to anyone who would wish to respond.
    The bill that I'm putting forward, would study the present 
and the past weather modification activities to see if there is 
any future in weather modification. In other words, just as an 
example, I don't know if this is possible, but I think we ought 
to be looking into when you see a certain type of hurricane, 
100 miles out in the Atlantic, whether there is something that 
could be done there that wouldn't stop it, but might make it 
less powerful when it comes into Florida or into Mississippi or 
Louisiana or Texas or Alabama. Is there something that we 
haven't looked at from the past that would give us an 
indication of, maybe, a mitigation of the impact? Because the 
damages are so much higher now than they have ever been, 
because of the intensity. So, my question is to anyone.
    Yes?
    Dr. Droegemeier. Senator Hutchison, it's a very important 
question you ask, and one that, as your bill states, got a lot 
of attention in the 1970s, but there was then a drought, so to 
speak----
    Senator Hutchison. Right.
    Dr. Droegemeier.--of weather mitigation activities.
    I would like to make four points with regard to 
modification. I think number one is, you really need good 
numerical forecast models to do weather modification, 
especially of hurricanes, because you need to know that the 
modification you're going to try to impute to the hurricane 
will have the intended effect. And so, that's a challenge, in 
and of itself, and it really requires the best research and the 
best forecast technology possible.
    And we have run simulations of tornadic thunderstorms, of 
hurricanes, and we know, through our simulations anyway, that 
in fact there's no question you can change the course of a 
hurricane, you can kill it off, you can kill off a thunderstorm 
before it produces a tornado.
    But, that brings me to the second point, which is, How do 
you actually, then, implement that change? And that's really an 
engineering problem. There have been some far-ranging, you 
might say, approaches proposed, all the way from launching 
ballistic missiles into thunderstorms, to doing all kinds of 
things in space, for hurricanes. The real challenge is, How do 
you actually deliver the disruptive influence that will change 
the course? We know, in our simulation models; we don't say how 
we're doing it, we just cool the ocean surface temperature, and 
sure enough, the hurricane dies. But then the question is, How 
do you actually do that?
    So, the first point is, you have to have good forecast 
models to know that the change you're trying to achieve, is, in 
fact, the one that's going to occur, you're going to get what 
you ask for. The second thing is really the issue of, How do 
you deliver the influence?
    The third one is an interesting one, and that is the 
unintended consequence. For example, hurricanes, although they 
are destructive, they have some very positive aspects as well, 
such as bringing fresh water inland. There is a lot of 
flooding, but they are an important source of water recharge in 
the hydrology system.
    Another thing about hurricanes that's very interesting, we 
don't know why they exist. We know why weather occurs; it's the 
atmosphere's way of trying to reduce imbalances of temperature 
between the cold poles and the warm equator, and it never is 
successful at doing that, because the sun keeps shining all the 
time.
    Hurricanes, we don't know why they're there. We don't know 
what purpose they play. And so, that has interesting 
implications in the climate system. If you got rid of all 
hurricanes, for example, what impacts might that have on the 
climate? This is where numerical models come into play. And 
when we actually are able to resolve hurricanes with climate 
models, which we can do now, we can run 100-year climate 
simulations; and when a hurricane starts to form, we can kill 
it off and then compare that simulation with the case where the 
hurricane is actually allowed to continue. So, the third point 
is really one of unintended consequences.
    The fourth point relates to ethics and legal issues. I know 
you run into this in Texas; we do, in Oklahoma and Kansas--
where you're doing rainfall enhancement studies, or hail 
suppression, and you're spending a lot of money actually doing 
that, you know, in the private sector, and somebody in Texas 
says, ``Well, you've bled all the water out of my clouds in the 
Oklahoma Panhandle,'' and the farmers in southwest Kansas get 
very upset. So, it brings in a lot of interesting legal 
challenges as you cross State lines and geopolitical barriers 
and things like that.
    But, I do think--and I read your bill, and I think it 
really is time for the Nation to get serious again about 
weather modification. And as your bill pointed out, and as the 
National Research Council study showed, there really is no 
compelling evidence that this works. But, we have much more 
powerful observing systems now, which we need--mobile radars, 
ground-based radars, things like that, aircraft, and especially 
numerical models. So, I think the scientific community is 
really well poised to address the important challenge you bring 
across in your bill. So, I applaud you for introducing it. 
There are some interesting nonscientific, ethical, and legal 
issues, as well, but----
    The other point I would make, just in closing, here, is 
that, in fact when you study modification of the weather, the 
kinds of questions you ask have great relevance to some of the 
other issues that we deal with, in terms of predictability of 
the atmosphere, in general, and how you do data simulation, as 
Dr. Spinrad mentioned. So, we might think of it as modifying 
hurricanes or doing advertent weather modification, but there's 
a lot we can learn scientifically in other areas of--and 
challenges in weather forecasting, when we're studying weather 
modification.
    So, it has a double-barreled positive effect, I would say, 
on the--studying the issue of weather modification, but all the 
other things that it relates to. We can get a great benefit, as 
well, from that.
    Senator Hutchison. And I wanted to go to Dr. Spinrad, but 
that is the purpose of the bill. It's not only to see what 
might have an effect, but what are the unintended consequences. 
And I think, even today, when you have cloud seeding in one 
area, we need to know if it affects weather in another area 
adversely. I think that's something that, because we did take a 
pass on getting data, really, many years ago, we really need to 
know, now, more where to go and what the consequences are.
    Dr. Spinrad?
    Dr. Spinrad. Thank you, Senator. I'd just like to add two 
points of emphasis to Dr. Droegemeier's comments.
    And the first is, before we modify any system, we really 
have to know what the system is comprised of. And if we look, 
for example, to hurricanes, it's only in the last several years 
that we have begun to understand the role of phenomena such as 
El Nino/La Nina on hurricane development.
    And something that's emerging right now is, we're 
discovering that dry air masses coming off the Sahara have a 
very strong influence on whether hurricanes will form or not. 
Five years ago we had no idea of that. And so, I'd say the 
research that goes into understanding the system and the 
development of any weather phenomena would have to be 
addressed, whether it's to improve the forecast or to engage in 
any kind of modification.
    My second point is an emphasis on the unintended 
consequences, and I'd hope we would include in that some 
understanding of the consequences to the ecosystem itself. 
There are some indications, for example, that because 
hurricanes have a major stirring effect, they reintroduce 
nutrients into the environment in the Gulf, for example. There 
are potentially beneficial consequences of hurricanes to the 
productivity of that environment.
    So it's the physical consequences, it's the societal 
consequences, but it's also the ecosystem consequences, as 
well.
    Thank you.
    Senator Hutchison. I think all those points are absolutely 
well taken, and would be part of any kind of study. Basically, 
what I want to do is start getting the data, and then, from 
that, know if we do modify or don't modify, that's when you 
start getting into the consequences. But, it just seems like 
not knowing is not very enlightened. So, hopefully, we can do 
something about it.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you----
    Senator Hutchison. I appreciate the opportunity.
    Senator Nelson.--Senator Hutchison.
    Earlier, Dr. Spinrad, you were talking about the importance 
of measuring the winds at the surface of the ocean as a means 
of trying to predict the direction and intensity of hurricanes. 
We used to have a satellite that measured that, but that 
satellite is beyond its designed life and either on the blink 
or it's about to go out.
    There was an attempt to get another one in there called a 
scatterometer. The short name was QuikSCAT. Since we don't have 
that capability, how do you fill the gap, and what are NOAA's 
plans for the next generation of a QuikSCAT?
    Dr. Spinrad. Surface winds are important. I think there has 
been some debate as to the full value of those data, in terms 
of improvement of the forecast; but, nevertheless, I think most 
of our scientists and forecasters would say, having those 
surface winds is of value.
    QuikSCAT, in fact, is viable, and is fueled to run through 
2011, if all things go well. We are in discussion with NASA 
about development of next-generation ocean surface vector wind 
sensor, which would fulfill the same data requirements as 
QuikSCAT does. We also have ongoing discussions for data 
availability from a scatterometer being developed by the 
European meteorological satellite system, and that would be 
called ASCAT.
    Finally, I would add that, as I mentioned earlier, there 
are some additional approaches that we are testing, one of 
which is the use of unmanned aerial systems, which we can 
actually fly into the hurricane and directly acquire the 
surface winds--near surface winds. And then the other is a new 
piece of equipment that we have installed on our aircraft and 
the Air Force aircraft, and that's called a step frequency 
microwave radiometer, which allows us to view the ocean's 
surface and extrapolate from that what the winds are.
    So, there are a variety of different approaches that are at 
hand. We believe, with the viability of QuikSCAT currently, we 
have time to develop the solutions so that we can, in fact, get 
those surface winds.
    Senator Nelson. Earlier, you all testified about these 
computer models and the supercomputer with regard to intensity 
and direction. What about the hurricane models that model what 
is going to be the economic loss for the insurance industry?
    Ms. Chapman-Henderson, do you think that, since the 
insurance companies have their own hurricane computer models, 
that we ought to have a public-domain computer model?
    Ms. Chapman-Henderson. I think it's fair to say that--when 
it comes to the models, that more is probably better. And 
having private-sector models, and having that information and 
findings from those models available, is essential.
    As far as having a public model, I think it's like any 
model; as long as the data and the assumptions and everything 
that go into the models are accurate and correct, then you're 
going to get a good product from them.
    One of the things I've heard--and I am not a modeler, but 
what I have heard in the work that we do is that it is 
important for us to not over-rely on models. They are 
predictors, like anything else, of economic loss. I think 
what's very instructive--and I think Mr. Nutter can probably 
add a lot of value to this conversation, as well--is that, when 
we look at the model's performance after a storm, there are 
some excellent track records, in terms of, you know, this was 
anticipated--this amount of economic impact was forecast, and 
that is indeed what occurred. Often, models are more 
conservative than what actually happens, because of the 
duration after the impacts of the storms, and the costs that 
aren't anticipated.
    Ironically, it seems like we come away--and I think this is 
true on the weather side, the engineering side, and the 
economic side--that we learn things after a storm, and we 
develop a set of beliefs. For example in Hurricane Andrew, we 
learned that hip-shaped roofs performed better than gables; 
gables collapse, and we were going to do it better. What 
happens is, we labor under all those beliefs--and that's good--
but, we learn something new each time.
    With respect to--you talked earlier about Hurricane Wilma--
you know, the rule of thumb--``As a storm makes landfall, you 
can expect to lose a category of strength--It comes in as a 4, 
it's going to go down to a 3--and down to a 2.'' But, take 
Wilma--after all those years of telling homeowners or, 
citizens, ``OK, it's coming in as a 4. By the time it gets to 
you it'll be a 3''--and we like these kind of pat beliefs, 
because they give us comfort, but they're not always true. You 
know, Wilma came in as a weak 1 or 2, but then it increased and 
came out on the east side, and caused more damage on the east 
side than the west.
    So, I guess the way I look at models is, as long as the 
information that goes in is excellent, that we can be guided by 
them. And I think, certainly on economic impacts, that's been 
proven. But, we have to keep an open mind, because every major 
catastrophe--and I've been in and around them for 25 years--we 
learn something altogether different about what the outcomes 
are going to be.
    So, I don't know if Mr. Nutter wanted----
    Senator Nelson. Mr. Nutter?
    Ms. Chapman-Henderson.--to add to that or not.
    Mr. Nutter. Senator Nelson, I've been proud to serve on the 
advisory board for the International Hurricane Research Center, 
which is affiliated with Florida International University, now, 
for some years, and that's where the public model in Florida 
was developed.
    Florida also has an interesting approach to evaluating 
these models, in having a commission that's, I think, chaired 
by--or staffed by academics from the community. It's a 
responsible approach to try and understand the dynamics of 
these models.
    It seems to me that one of the--one of the real values of 
the public model, where emphasis really ought to be placed is 
on what the public values are, here. So, by that I mean, what 
mitigation might benefit from an analysis using the public 
model--what evacuation systems, hardening systems--those kinds 
of things, a public model has not focused on as much as it 
could and should, and would be very valuable in doing so.
    So, there is great utility in a public model that would 
really look at the kinds of impacts that these storms have, and 
help everyone understand what those impacts may be, but, more 
importantly, what you could do to minimize those impacts.
    Senator Nelson. Does Florida have a public model today?
    Mr. Nutter. Florida does have a public model. It was 
developed at Florida International University, and funded by 
the State of Florida through the insurance department.
    Senator Nelson. To what degree do the insurance companies 
and reinsurance companies use the public model to determine 
loss and therefore to determine what the premiums are?
    Mr. Nutter. I don't think the public model is used by the 
insurance or reinsurance companies. There are private models 
that are used. And those models all have to go through an 
accreditation process that's a commission in the State of 
Florida. So, to the extent that they are private and they have 
proprietary information in them, they are still subjected to a 
review, under the jurisdiction of the State of Florida, to see 
what the--the assumptions that are made in those models.
    I think that the public model is used primarily by the 
insurance department as a guideline, if you will, a guidepost, 
in looking at what the insurance companies file, and what 
reliance they place on the public models--on the private 
models.
    Senator Nelson. Do either you or Ms. Chapman-Henderson 
recall what year the public model was developed by Florida 
International University?
    Mr. Nutter. The Florida Hurricane public model was released 
in 2006.
    Senator Nelson. OK.
    Dr. Droegemeier, what is the relationship, if any, between 
climate change and hurricanes?
    Dr. Droegemeier. That's a very, very good question, 
Senator. And, in fact, we tend, a lot of times, to think about 
climate changing the nature of hurricanes; for example, the 
intensity and the frequency and so on. But, it's really a two-
way street. In fact, hurricanes themselves can impact climate. 
So, we have to remember, first and foremost, that it's a two-
way street.
    Recent studies have suggested that, with the climate 
changing as we believe it is, as the records actually indicate, 
that we're seeing a shift, not in the total number of storms, 
but--keeping the number of storms constant, but more--a larger 
number of more intense hurricanes, and a smaller number of less 
intense hurricanes. So, we see that shift in the Atlantic, 
based on historical records of a few decades. There's also some 
sense of the hurricane--the power of the hurricane being 
greater in the last several decades than it had been prior to 
that.
    So, those are some evidences that we're seeing. But it's a 
real challenge to draw definitive conclusions, so the work 
really needs to be ongoing.
    Flipping the coin around, now, looking at the impacts of 
hurricanes on the climate system, we're seeing some things, in 
the last few years especially, that really, as Dr. Spinrad 
mentioned, some of these new discoveries that are sort of 
surprising; in fact, the role of hurricanes changing the 
balance of currents in the ocean because they bring up a lot of 
cold water from beneath. When you have a lot of hurricanes in a 
progression, as we saw several years ago--I think it was four 
or five in the Atlantic, all lined up right after one another--
that has a longer-term impact on the climate system, the so-
called conveyor belts of moisture and--or, rather, of heat and 
energy in the ocean. And that has an impact on the large global 
climate system.
    So, it's not just the climate changing the hurricane, but 
the hurricane impacting the climate system. And that's 
something we really have not been able to study, because 
climate models have not been able to resolve hurricanes. So, 
without the hurricane in the model, you really are missing an 
important piece.
    But, that is changing now, with the more powerful computers 
getting to the resolutions, that Dr. Spinrad mentioned, of 
really understanding what those tradeoffs are.
    So, I would say, overall, that the notion of how hurricanes 
are impacted by climate, and the impact of hurricanes on the 
climate system, is really in its infancy. We're seeing some 
early results that are rather compelling, but certainly a lot 
more work needs to be done.
    Mr. Nutter. Senator, could I add something to that, if----
    Senator Nelson. Please.
    Mr. Nutter.--if you would, please?
    I agree wholeheartedly with Dr. Droegemeier. And it would 
seem that, in the legislation that you've introduced to fund 
additional research related to hurricanes, there certainly are 
references to climate change in there. From looking at the 
value there, to the extent that those climate models can be 
more regionalized, that the resolution can be more tailored to 
local areas, it would be of greater value to local officials 
and other private- and public-sector officials in addressing 
issues associated with climate change.
    Senator Nelson. Well, let's say that we have an increase of 
1 foot in the sea level. Now, what does your professional 
opinion tell you is going to happen to the storm surge level 
and the inland flooding?
    Yes, sir, Dr. Wells?
    Dr. Wells. I was--wanted to jump into the last conversation 
to say--your 1-foot estimate may be quite conservative. One of 
the things that we do at the Center for Space Research is, 
we're the lead--principal investigator for the gravity recovery 
and climate experiment, the two-satellite mission that is 
really looking, in probably the greatest detail, at the loss of 
water from Greenland and Antarctica. It's showing--and I think 
observations are also showing that the rate of relative sea-
level rise is increasing more dramatically than some of our 
previous modeling would have shown, just 2 or 3 years ago. And 
that estimate, that it may only rise a foot or so by the end of 
the century, may be off by a factor of 50 percent. We could see 
a considerably larger rise than that.
    I think this has tremendous impact on what we want to do in 
the future, as we think about what sort of mitigating steps 
we're going to take, because it's a moving target now. I have 
friends who are studying barrier systems, that are quaternary 
geologists, that have looked at everything that has formed 
since the last iglaciation, and they are seeing evidence that 
sea level is rising faster than it has in 7,500 years, if this 
trend continues. Well, barrier islands did not exist along the 
Texas and Louisiana coasts at that period; in fact; there is 
some question as whether they could exist under those 
conditions.
    We're getting into a period of instability as this 
increases. And if we're going to have large, built 
infrastructure, like an Ike Dike, placed in these areas, we're 
going to have to ask these questions. If these trends continue, 
what are the effective countermeasures that we can take? These 
are tremendous impacts on the coastline, and we--I don't think 
we have fully comprehended, at this stage, what the future 
holds as it unfolds. Certainly, the modeling is going to help 
us determine that.
    Dr. Spinrad. Mr. Chairman, if I can add, there's an 
important component that has to be introduced into this 
discussion, as well. In addition to the climate change impacts, 
we also recognize that there are periods of several decades 
when we see increased and decreased frequency, intensity of 
hurricanes, the multi-decadal oscillation. And the--naturally 
occurring--and the question is, How much of that is continuing 
to happen? So, as we have the discussion with regard to climate 
change impacts, we've also got to look at what we believe are 
the naturally occurring multi-decadal patterns that Mother 
Nature introduces, herself.
    Senator Nelson. Dr. Spinrad, representing NOAA, are you 
familiar with a satellite, that is sitting on the ground, named 
Discover, which would give some more precise measurements on 
climate change? You want to offer your professional opinion 
about that?
    Dr. Spinrad. I am familiar with that, sir. In fact, I had 
the pleasure of talking with Former Vice President Al Gore 
about that particular satellite, just a few months ago.
    I think there are clear benefits to the kinds of 
observations that we would get from a satellite such as 
Discover. I also believe that we have looked very carefully at 
our priorities for remote sensing, the satellites that we 
currently have in the hopper, if you will, to be put up, and 
the launch schedule; and I believe that we can't afford to 
compromise that schedule. I think we should have a more 
rigorous debate and discussion about how and whether and when 
we should consider launching that kind of capability, but not 
if it compromises what we have all very carefully agreed are 
the needs at hand right now.
    In fact, the National Research Council put out, just a 
couple of years ago, what they call their ``decadal survey,'' 
identifying what they, the Nation's premier scientists, believe 
the priorities are for Earth observations. And we've tried to 
use that as our guide in defining what satellites we should put 
up, when, and for what observations.
    Senator Nelson. I think we're going to be able to get that 
satellite up, because now the Department of Defense has a need 
for another instrument to replace an aging satellite at the 
Lagrange point, between Earth and the Sun, to measure solar 
flares and the radiation effects upon the Earth, to warn Earth 
before the solar radiation gets to Earth. I think, 
increasingly, we just put language in the Department of Defense 
Authorization Act, that the Air Force is going to study this, 
and I think this might be a way that we can kill two birds with 
one stone.
    Let me ask Mr. Nutter, How is the insurance industry 
addressing climate change? Clearly it has an enormous impact on 
the insurance industry because of all the property that you 
insure on the coast.
    Mr. Nutter. It's an excellent question. And at times, I'm 
proud of the industry, and, at other times, disappointed in 
their commitment to this. A number of reinsurers have, for a 
long time, funded research--private research--as well as talked 
publicly about the need to address climate change. Swiss 
Reinsurance and Munich Reinsurance stand out as companies that 
have always been a paragon of being progressive about looking 
at this.
    Increasingly, we see an interest in the industry to better 
understanding the science, including working with people such 
as on this panel. The Willis Insurance Group, which is an 
insurance brokerage, funds academic research through a Willis 
Research Network. The Institute for Business and Home Safety, 
which is a companion organization to FLASH, Ms. Chapman-
Henderson's organization, as I mentioned in my statement, is 
now funding a research facility to look at this.
    I would hope that our industry in the United States would 
commit more to research and looking at climate change, because 
there's no question that the implications of climate change for 
the insurance companies, but, more importantly, their 
policyholders, is pretty critical to understand. So, I--a 
closer relationship between our industry and the community of 
government and private research is pretty critical.
    Senator Nelson. A decade ago, European insurance companies 
were getting more interested in the effects upon their economic 
activities more so than were American insurance companies. Are 
European companies still taking the lead?
    Mr. Nutter. No question about it. Allianz, Munich Re, Swiss 
Re, Renaissance Re, which is a Bermuda-based company, have all 
stepped forward to fund research, as well as to promote a 
better understanding of this. And by that I mean by public 
research made available to others and funding research looking 
at both the health and property, life exposures, related to 
climate change.
    The industry in the United States, historically, has a 
business model that tends to be a retrospective one. They look 
at actuarial data, and trend it forward. I would say the 
Europeans continue to be more progressive than the U.S. 
industry in trying to understand future events and the impact 
upon themselves, as well as their policyholders.
    Senator Nelson. I want to conclude by asking anybody who 
would like to respond. One of the problems that we have here in 
the Senate is the fact that Senators from States that are not 
coastal States tend to think that hurricanes are not their 
problem. If they don't come from California, they think that 
earthquakes are not their problem. Now, we are focusing on 
hurricanes here. But, that's just a fact of life, and that's 
human nature.
    You all want to suggest, for the record, on a hurricane 
bill that Senator Martinez and I have proffered, that seems to 
meet with widespread support, what is it that you would 
recommend to us as to how we go about getting the attention of 
these Senators, who are not from coastal areas that are 
threatened by hurricanes, to support it?
    Ms. Chapman-Henderson?
    Ms. Chapman-Henderson. Senator Nelson, I think, first and 
foremost, as taxpayers, we all need to be concerned about the 
impacts of hurricanes, because of the significant economic 
impacts to all of us. But, on a more practical level, I think 
you can go State by State and identify impacts that surprise 
some. One in particular that springs to mind is from Hurricane 
Ike and the flooding that occurred in Ohio. More than a billion 
dollars in insurance losses happened in Ohio because of Ike. 
Similarly, in Pennsylvania, after Hurricane Ivan; West 
Virginia, after different storms. The hurricanes do not come to 
the coast and, as you know, stop. They move through and they 
cause damage throughout the United States. And I think it's, 
again, one of those things--we're sometimes looking back at 
that instead of thinking forward. But, I believe we can provide 
a very detailed analysis, of cases of economic and, societal 
disruptions that follow hurricanes well inland to places that 
are not traditionally thought of as hurricane zones--Ohio 
springs to mind again, because of last year.
    Dr. Wells. Senator, there are national disruptions to the 
consequences of hurricane landfall in particular areas. You 
only need to look at the high proportion of all the 
petrochemical and refining activity that occurs on the Texas 
and Louisiana coast. And we have not had the event that would 
create the true distortion and disruption of that system. 
That's the kind of hurricane that would go up the Houston ship 
channel, for instance.
    Dr. Spinrad. Mr. Chairman, we've talked mostly about 
landfall, we've talked about impacts on the coast. I would 
remind you that greater than 95 percent of the imports and 
exports we enjoy in this country travel by sea. Saying that a 
hurricane has safely turned to sea is not quite appropriate 
when we talk about the impacts on that maritime commerce. 
Everything we buy--almost everything we buy and sell takes 
advantage of that. There are excellent studies that have shown 
the impact of adverse weather on the cost of goods and 
products, wherever we buy them, in the United States.
    Dr. Droegemeier. Senator Nelson, I think it's a very, very 
important point, and, in fact, it's why such an integrative 
research approach is needed to understand these linkages. And 
some of them are very long term, in terms of goods and 
services--the supply chain, the resupply, things like the 
forest industry--some of these are decadal impacts of 
hurricanes that require massive rebuilding efforts--and 
shipping of goods and services, reallocation of wealth, if you 
will, from some part of the country to another. And the 
sustaining impacts are very long term. And we really don't 
understand that nearly as much as we should. We can give some 
excellent examples, as you've heard here, but I think the 
interactions of all of those different components of our 
society are something that are very, very complicated, and 
something we really don't have a handle on.
    So, the research you're talking about, I think, by its 
nature, will build upon these stories and give credibility to, 
and a deeper understanding of, their impact on our society.
    Mr. Nutter. And, Senator, if I might add, this is a country 
of shared values, and two of the values that we talk about 
repeatedly here are mitigation, ways to reduce damage to 
property and loss of life. And certainly research in this area 
is going to have an extra effect on other kinds of properties 
in nonhurricane areas.
    The other shared value would be our responsiveness to 
people that have had a disaster, that have faced that. The 
government has always been generous incoming in and dealing 
with temporary housing and disaster assistance and response.
    Senator Nelson. In addition to the excellent comments that 
you all have made to this question of, ``Why should Senators 
from noncoastal States be interested in the damage of 
hurricanes?'' it's also the fact that most of the cost is borne 
by the American taxpayer, wherever that taxpayer happens to 
live, because clearly we've seen, in the case of Hurricane 
Katrina, almost half of the economic loss of that hurricane was 
borne by the Federal Government in its efforts to try to bring 
that part of the United States back to life.
    I want to thank you all. This has been an extensive and 
very thorough discussion of the issue. You have illuminated 
this issue enormously. The record is quite full, and that is 
thanks to your expertise, as presented here today.
    So, thank you.
    And, with that, the meeting is adjourned.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]


                            A P P E N D I X

         Prepared Statement of Max Mayfield, Former Director, 
                       National Hurricane Center

    Mr. Chairman and Members of the Committee, I am Max Mayfield, 
former Director of the National Hurricane Center, and current Hurricane 
Specialist for WPLG-TV in Miami and Sr. Executive VP--Government 
Relations for America's Emergency Network. Thank you for inviting me to 
share some of my thoughts on a National Hurricane Initiative. I will 
address observations and forecasting before giving some final comments.

Observations
    The primary observing systems used for tropical cyclone (TC) 
monitoring are the satellites. Today, several geostationary and lower 
orbiting satellites provide a wealth of information to modeling centers 
and forecasters. One of the more useful polar-orbiting satellites is 
NASA's QuikSCAT which can provide surface wind information over ocean 
areas including around TCs. QuikSCAT is used daily in routine marine 
forecasts and has been an overwhelming success with these marine 
forecasters around the globe. There is great concern for QuikSCAT 
within the marine and TC forecasting communities because the satellite 
was launched in 1999 with a five-year life expectancy. The more than 
ten-year-old technology also has some limitations such as rain 
contamination in heavy rain bands and the eyewall of hurricanes which 
prevents accurate wind information there. NOAA has documented surface 
vector wind requirements (surface winds) during a NOAA Operational 
Ocean Surface Vector Winds Requirements Workshop held at the National 
Hurricane Center in June of 2006. These requirements include all-
weather retrievals (i.e., accurate winds in rain), reducing time 
between the satellite passes over a particular point, reducing time 
from measurement to availability, and others. This could be achieved 
with today's technology that has advanced beyond QuikSCAT. It would be 
a fair question to ask NOAA and NASA what is being done in regard to a 
next-generation QuikSCAT. Although more detailed aircraft 
reconnaissance is usually available for tropical cyclones that threaten 
the United States, the QuikSCAT is extremely useful for TC forecasters 
for storms well out at sea and for those forecasters in other ocean 
basins without aircraft reconnaissance. In my opinion, the day to day 
marine forecasting program should more than justify the need for the 
next-generation QuikSCAT--and the secondary benefits to hurricane 
analysis make follow-on missions imperative. NOAA has committed modest 
funds to studies of a next-generation QuikSCAT. What are the plans for 
going operational?
    As a TC nears the United States, the more detailed data from 
aircraft reconnaissance becomes critical. NOAA has two P-3 hurricane 
hunter planes based at the Aircraft Operations Center at McDill Air 
Force Base in Tampa, FL that fly primarily reconnaissance research 
missions although they also account for a small percentage of the 
operational reconnaissance flights. The U.S. Air Force Reserve Command 
has ten C-130J hurricane hunter planes based at Kessler Air Force Base 
in Biloxi, MS that fly most of the operational reconnaissance missions. 
The NOAA P-3s are equipped with tail Doppler radars that are not 
available on the Air Force planes. The Doppler radars provide a more 3-
dimensional sampling of the TC's circulation that is needed for 
numerical models to be able to forecast changes in the TC's structure. 
If this 3-dimensional structure is not accurately measured, how can one 
expect to accurately forecast it into the future? I am confident that 
the improved Doppler data obtained from aircraft, especially in the 
core of a hurricane, will soon be shown to improve intensity 
forecasting. What does NOAA need to complete the testing of the P-3 
Doppler radar data in numerical models? And if this Doppler data is 
proven to have a positive impact on forecasting, what are the plans to 
transfer the technology to the Air Force hurricane hunters who fly by 
far the majority of the operational missions?
    One of the true success stories in tropical cyclone forecasting has 
been the inclusion of the NOAA G-IV jet surveillance data into 
numerical models. This NOAA jet basically flies in the environment 
around the hurricane and samples the steering currents that the 
hurricane is embedded within by releasing dropwindsondes that send back 
temperature, humidity, wind and pressure as they drop from flight level 
(usually 43,000 feet) to the surface. Countless impact studies reveal 
examples of improved model forecasts when the G-IV data are available. 
At this time, NOAA has only one high-altitude jet. This is a single 
point of failure. There has been talk of purchasing an additional G-IV 
or perhaps a G-V. What are the current plans? It is also my 
understanding that a Doppler radar is being installed on the current G-
IV. This may help in collecting 3-dimensional data in the core of the 
hurricane similar to the P-3s. If the G-IV Doppler data is successfully 
incorporated into the numerical models, what is the plan to initialize 
the numerical models every 6 hours with radar data?

Forecasting
    TC track forecasts have been steadily improving thanks to better 
observations (satellite, aircraft, radar, buoys, etc.), more 
sophisticated computer models, and faster computers. Intensity 
forecasts have shown little or no improvement. On average, the official 
NHC intensity forecasts are pretty reasonable but the forecasters have 
been very honest in saying they don't catch the rapidly changing TCs 
(rapidly strengthening or rapidly weakening). One of my greatest 
nightmares is seeing people go to bed at night preparing for a weak 
hurricane and waking up to an Andrew (Cat 5) or Katrina (Cat 3).
    The atmosphere is unbelievably complex and, in my opinion, we will 
never be able to give a perfect forecast. The National Research Council 
released a report on ``Completing the Forecast: Characterizing and 
Communicating Uncertainty for Better Decisions Using Weather and 
Climate Forecasts'' in 2006. The report states ``Uncertainty is thus a 
fundamental characteristic of weather, seasonal climate, and 
hydrological prediction, and no forecast is complete without a 
description of its uncertainty.'' In my opinion, a single deterministic 
forecast of a TC can not only be misleading, but it can lead to bad 
decisions and loss of life. It is preferable to make probabilistic 
forecasts on TCs. The NHC is to be commended for leading the way this 
is being done with its probabilistic wind and storm surge forecasts. 
However, these probabilistic forecasts can be made better by improving 
computer models and better use of ensemble forecasts. An ensemble 
forecast is simply a collection of multiple forecasts verifying at the 
same time. Modeling centers around the globe are using ensemble 
forecasts. I'm sure that most numerical modelers would say that they 
could do a better job with more resources. Development of more accurate 
model forecasts including data assimilation is not trivial. And 
computing power is extremely important to accomplish improved ensemble 
forecasting. NOAA has recently established the ten-year Hurricane 
Forecast Improvement Project with moderate levels of funding. In my 
opinion, it provides a rare focus on important hurricane issues. I wish 
there had been such commitment, effort, and funding during my nearly 
35-year career at the National Hurricane Center.
    Hurricane Katrina has reminded us that a large loss of life is 
possible from the storm surge. Improved storm surge models 
incorporating ``wave-setup'' and ``wave-runup'' are no doubt being 
developed. But one should remember that to get a perfect storm surge 
forecast, one has to have a perfect forecast of the track, a perfect 
forecast of the intensity, and a perfect forecast of the structure 
including the radius of maximum winds. Therefore, the storm surge and 
wave forecasts need to be presented in a probabilistic manner as well. 
This would also hold true for rainfall forecasts.
    I have been quite interested in reading recent media reports on 
proposed plans for controlling hurricanes. The payoff would be 
tremendous if man could control hurricanes, and I have never 
discouraged researchers from thinking of ideas that might work. But we 
should go very slowly here. Changing ocean temperatures and other 
proposed ideas, even if they could be applied to the large area of a 
hurricane, could obviously have unwanted impacts on the environment. 
And a huge impediment seems to be the inability of telling what man has 
done and what nature has done on its own. I suspect that every 
hurricane forecaster will tell you that they do not have a reliable 
computer model that can be depended upon to routinely give accurate 
track and intensity forecasts. We have all seen some pretty unexpected 
changes in a hurricane's track and intensity that were not well 
predicted by any computer model. If we can't predict exactly what the 
hurricane will do, how would we determine if a change in track or 
intensity were due to man's influence or simply what the hurricane 
would have done without any help from man. I would much rather see 
funding focused on improving the computer model guidance before 
investing in hurricane modification.

Closing Comments
    The biggest hurricane problem that the United States has, in my 
opinion, is the ever-increasing population and wealth in vulnerable 
coastal communities. As long as we continue to develop these coastal 
areas, the damages from hurricanes will increase. And the potential for 
large loss of life will also increase. Our memories of past disasters 
are very short. Creating a national catastrophic insurance fund will 
not solve the problem alone. I have read several reports on such a fund 
being proposed, but I rarely hear of any linkage to better building. 
Until we build better and smarter in hurricane prone areas, we are 
inviting disaster.
    I would like to close by sharing an idea proposed by the Policy 
Director of the American Meteorological Society that I think has merit. 
When we have an airline disaster, the National Transportation Safety 
Board (NTSB) immediately sends in a team of experts to the crash scene. 
The NTSB coordinates and leads the team, but the team includes experts 
from all the stakeholders--the airframe manufacturer, the airline, the 
FAA, etc. Although the NTSB findings and recommendations do not carry 
the force of law, stakeholders ignore them at their peril. The result 
is an airline safety record that has steadily improved over the years. 
Perhaps we need something similar for disasters, like a National 
Disaster Review Board. Most of the reports written on Katrina focused 
on the response. Response is indeed important. But there are many other 
parts to the puzzle, such as land use, building codes, communication, 
education, insurance, preparedness, mitigation, etc. We need the 
political will that will span multiple administrations to make a 
meaningful commitment to help change the outcome for the better in 
future hurricane events.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                       Dr. Kelvin K. Droegemeier

    Question 1. You said that additional research is especially needed 
in the fields of the social, behavioral and economic sciences, and that 
such research is relevant to hurricane understanding, prediction, 
mitigation, consequences and societal responses. While I do not 
disagree that research into those fields could be relevant in terms of 
mitigation and understanding the consequences and social responses in 
the aftermath of a hurricane impact, how, in your opinion, is 
additional research in those particular fields relevant to 
understanding the atmospheric dynamics of hurricane systems or relevant 
to helping us better forecast hurricanes or predict their development 
and movement?
    Answer. For the most part, social, behavioral, and economic 
sciences do not contribute in any direct manner to developing a better 
understanding of the dynamics of hurricanes or more accurate prediction 
of their intensity and movement. However, physical evidence suggests 
that climate change already is impacting, and likely will continue to 
impact hurricane frequency, intensity and perhaps other 
characteristics. Given that climate change is a physical science 
manifestation of human behaviors that inherently are social and 
economic in character, it is accurate to say that social and behavioral 
science research may, in an indirect but potentially profound manner, 
impact our ability to predict hurricanes.

    Question 2. Would you be concerned that by especially focusing 
resources on research into the social, behavioral and economic 
sciences--i.e., on the aftermath of hurricane impacts--we might lose 
focus and miss an opportunity to make advances in our understanding of 
the development of hurricanes and their interaction with the ocean and 
atmosphere and therefore the potential to better forecast hurricanes 
and predict how they will develop and where they will make landfall? 
After all, isn't the first line of defense against hurricanes and to 
mitigating property damage and loss of human fife providing an accurate 
forecast and timely forewarning to the areas that will be impacted, 
therefore giving state and local governments, agencies and first 
responders time to mobilize and coordinate and giving the population 
enough time to prepare and evacuate?
    Answer. No, I would not be concerned because, as noted in the NSB 
report calling for a National Hurricane Research Initiative, hurricane 
research should be conducted as a balanced portfolio involving the 
physical sciences, social behavioral and economic sciences, 
engineering, and other related areas. To date, the bulk of research 
funding for hurricanes has rightly been directed toward the physical 
science and engineering areas because, as you note, accurate forecasts 
are foundational to effective response. This research needs to 
continue, particularly with regard to rapid changes in hurricane 
intensity.
    However, catastrophic loss of life continues to occur because 
hurricanes are not being studied in a truly integrative fashion, that 
is, as a weather-driven societal problem. For example, only recently 
has funding been directed toward understanding how information about 
hurricane path and intensity should be communicated, and how the public 
is likely to respond under various scenarios. Physical scientists can 
produce the forecasts--but social scientists are needed to understand 
how to package and convey the information, and anticipate human 
response. Even extremely accurate forecasts, as were produced in 
Hurricane Katrina, for example, lose considerable value if they are not 
communicated effectively, and if response to them is not understood and 
accounted for in planning. Weather predictions are like seat belts; 
even though they have the potential to save lives, they can do so only 
if used properly.

                                  <all>

</pre></body></html>
